1a
In the
United States Court of Appeals
For the Seventh Circuit
––––––––––––––––––––
No. 19-2051
WHOLE WOMAN’S HEALTH ALLIANCE, et al.,
Plaintiffs-Appellees,
v.
CURTIS T. HILL, JR., et al., in his official capacity as
Attorney General of the State of Indiana, et al.,
Defendants-Appellants.
––––––––––––––––––––
Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:18-cv-01904-SEB-MJD
Sarah Evans Barker, Judge.
––––––––––––––––––––
ARGUED JULY 11, 2019
DECIDED AUGUST 22, 2019
––––––––––––––––––––
Before WOOD, Chief Judge, and FLAUM, and
EASTERBROOK, Circuit Judges.
WOOD, Chief Judge. Indiana, like many states, has
an elaborate network of laws regulating abortion
care. The present appeal presents a narrow question:
is one provider entitled to a preliminary injunction
against one part of those laws, as it relates to one
clinic in one city? More will come along later, as the

2a
district court proceeds to resolve the underlying case,
in which plaintiffs have asserted more broadly that
various aspects of Indiana’s abortion regime violate
the Fourteenth Amendment’s Due Process and Equal
Protection Clauses. But the merits stage of the case is
still in its infancy.
The provider now before us is Whole Woman’s
Health Alliance (“the Alliance”). It is having trouble
complying with Indiana’s abortion laws, despite its attempts to do so. The Alliance has for the past two
years been unable to obtain a li- cense from the Indiana State Department of Health (“the Department”).
It needs such a license in order to open a clinic that
exclusively provides medication abortion care in
South Bend, Indiana. After almost two years, two unsuccessful applications, a statutory amendment to
relevant definitions, and a moving target of wideranging requests for information, the Alliance concluded that its attempts were futile and turned to the
federal court for assistance. It filed a motion for a preliminary injunction that would exempt it from the licensing requirement, thereby allowing it to provide
care at the South Bend clinic while the case proceeds.
The district court granted the requested preliminary relief. It held that the Alliance has shown a likelihood of success on the merits of its claim that Indiana’s requirement of licensure for clinics that provide
only medication abortions (that is, those induced exclusively by taking pills), as applied to the South Bend
clinic, violates both the Due Process and the Equal
Protection Clauses of the Fourteenth Amendment.
The state has taken an interlocutory appeal asking us

3a
to lift that injunction. See 28 U.S.C. § 1292(a)(1).
While that appeal has been pending, we issued an order narrowing the scope of the district court’s injunction, and we heard oral argument on the question
whether the preliminary injunction should be stayed
immediately. Briefing has been proceeding apace in
the main appeal from the injunction, but we conclude
that we now have enough before us to resolve that appeal as well as the narrower stay issue we considered
at argument.
We hold that the district court’s broad condemnation of Indiana’s licensing scheme runs contrary to
Supreme Court precedent. While this litigation is
pending, the state may for the most part administer
that system in the ordinary course. Nonetheless, we
have concerns about the state’s handling of the Alliance’s license application. Indiana may use licensing
as a legitimate means of vetting and monitoring providers. To the extent that Indiana is using its licensing scheme to prevent the South Bend clinic from
opening simply to block access to pre-viability abortions, rather than as a legitimate means of vetting
and monitoring providers, it is acting unconstitutionally. We therefore order the district court to modify
the in- junction to instruct Indiana to treat the Alliance’s South Bend facility as though it were provisionally licensed. This respects the state’s interest in regulating medical facilities, while at the same time it
allows the Alliance to keep providing medication
abortions at its South Bend clinic while the case proceeds.

4a
As the district court develops the record in this
case, it may continue to examine whether the state
has proceeded in good faith in its handling of the Alliance’s license application, or if instead the apparently ever-changing requirements mask a decision to
deny all such licenses. This inquiry includes but is not
limited to whether the Department’s conduct was a
sincere attempt to ensure that the Alliance is a qualified provider that meets the requirements for a license, or pretext for an unconstitutional action.
South Bend, Indiana, is the state’s fourth largest
city; the metropolitan area in which it is located has
a population of about 320,000.1 (See U.S. Census, Annual Estimates of the Resident Population: April 1,
2010 to July 1, 2018, https://factfinder. census.gov/faces/tableservices/jsf/pages/productview.
xhtml?pid=PEP_2018_PEPANNRES&src=pt (click
“Add/Remove Geographies”; search location field for
“South Bend-Mishawaka, IN-MI Metro Area”; click
“Show Table”)) (last visited Aug. 19, 2019). It is home
to several colleges and universities, including worldrenowned University of Notre Dame du Lac, and St.
Mary’s College, a Catholic women’s private liberal
arts institution. The nearest abortion clinic is in Merrillville, Indiana, 65 miles away. Other Indiana clinics
exist in Lafayette (106 miles away), Indianapolis (150

1 We take our account of the facts from the district court’s
findings on the motion for preliminary injunction, unless otherwise noted. Many of them are, of necessity, subject to change,
depending on what the final record shows.

5a
miles away) and Bloomington (199 miles away).2 Public transportation is not a realistic option for travel
between South Bend and Merrillville (or any of the
other cities with an abortion clinic). Women in the
South Bend area therefore must arrange for private
transportation—either twice or coupled with lodging
arrangements—because Indiana requires women to
wait 18 hours between first seeing their doctor and
then receiving an abortion. The absence of a South
Bend clinic thus makes access to abortion care more
costly because of the increased time, money, and social isolation experienced by low-income women who
live in northern Indiana. According to evidence presented to the district court, the travel and time costs
led some women to skip bills, pawn belongings, or
take out pay- day loans to cover the costs of abortion
care, including not just the medical fees, but also the
costs of transportation and lodgings. Patients often
must travel alone, because of their own financial limitations or those of their families and friends, as well
as for privacy reasons.

To the extent it may be relevant (and that may be not at
all), the distance between South Bend and Chicago is about 95
miles. This is therefore not a case in which someone could drive
five miles across a state line to obtain access to abortion care,
assuming that out-of-state care is possible under the person’s insurance plan. We note as well that we have rejected the proposition that “the harm to a constitutional right [can be] measured
by the extent to which it can be exercised in another jurisdiction.” See Planned Parenthood of Wis., Inc. v. Schimel, 806 F.3d
908, 918 (7th Cir. 2015), quoting from Ezell v. City of Chicago,
651 F.3d 684, 697 (7th Cir. 2011).
2

6a
A
In Indiana, as in other states, one does not simply
open the doors of a clinic that provides abortion care
without further ado. Instead, the state for many years
has had a licensing regime. Indiana Code § 16-21-210 provides that a person “must obtain a license” from
the Indiana Department of Health “before establishing, conducting, operating, or maintaining … an abortion clinic.” The licensing requirement initially applied only to clinics that offered surgical abortions,
but in 2013 (and later in 2015 to address problems
with the first version) Indiana amended its code to require licenses for medication-only clinics. See Abortion—Drugs and Medicine, 2013 Ind. Legis. Serv. P.L.
136-2013 (S.E.A. 371) (WEST); Health and Sanitation—Health Care Providers— Abortion, 2015 Ind.
Legis. Serv. P.L. 92-2015 (S.E.A. 546) (WEST) (codified at IND. CODE § 16-18-2-1.5(a)).
Indiana’s licensing regime imposes several requirements on abortion clinics. Two are pertinent
here: first, an applicant must show that it is “of reputable and responsible character”; second, it must
“[d]isclose whether the applicant, or an owner or affiliate of the applicant, operated an abortion clinic that
was closed as a direct result of patient health and
safety concerns.” It must include “administrative and
legal documentation,” “inspection reports,” and “violation remediation contracts” related to any such disclosures. IND. CODE § 16-21-2-11(a), (d).

7a
The Department has also promulgated administrative regulations to implement the licensing system. Those regulations state that the Department
may deny a license for a variety of reasons, including
because the applicant lacks “reputable or responsible
character” or if its “application for a license to operate
an abortion clinic or supporting documentation provided inaccurate statements or information. 410 IND.
ADMIN. CODE § 26-2-5(1), (7).
B
In 2014 the Alliance began studying the possibility
of opening a clinic in South Bend. On August 11, 2017,
it filed a formal application to open a South Bend
clinic exclusively for medication abortions, i.e. those
effected through two drugs, mifepristone and misoprostol. Mifepristone is approved by the federal Food
and Drug Administration (FDA) for abortions up to 70
days after the woman’s last menstrual period; misoprostol is FDA-approved for the same early-term
abortions, although the first use listed for it relates to
ulcer prevention. See WebMD, Mifepristone 200 Mg
Tablet
Abortifacients,
https://www.webmd.com/
drugs/2/drug-20222/mifepristone-oral (last visited
Aug. 20, 2019); WebMD, Misoprostol, https://www.
webmd.com/drugs/2/drug-6111/misoprostol-oral/details (last visited Aug. 20, 2019). Medication abortions
rarely give rise to complications: the district court
cited one study of more than 230,000 patients, who
experienced a complication rate of 0.65 percent. Complications requiring hospital admission occurred in
only 0.06 percent of cases; those needing emergencyroom treatment accounted for 0.10 percent. Taking a

8a
cautious path, however, the FDA has authorized mifepristone and misoprostol for abortions only if the
pills are given to the patient directly by a doctor; doctors may not write a prescription for a pharmacy to
fill. The FDA has also authorized the use of these
drugs, in the identical dosages and given in the same
order, for the treatment of miscarriages.
The Alliance amended its application on October
6, 2017, to cure several minor problems that a Department representative had identified. But that was only
the beginning. Trent Fox, the Department’s chief of
staff, testified that the Alliance’s application raised a
few red flags for him. The Alliance was a new entity
to the state. Fox had heard that a clinic administrator
with ties to the Alliance had a connection to a doctor
who surrendered his abortion-clinic license and lost
his medical license. The Department also received letters from some Indiana state senators who indicated
that they had received messages from constituents alleging health violations at Whole Woman’s Health
clinics through- out the country. The letters reminded
the Department of Indiana’s preference for “pro-life”
policies. In response to these complaints, Fox turned
to the internet. There he found a website, not for the
Alliance, but instead for an entity with the similar
name Whole Woman’s Health LLC. The website had
a list of “Our Clinics” that included the hoped-for
South Bend clinic and eight other clinics across the
country with the name “Whole Woman’s Health.” In
its application, the Alliance had stated that none of
its affiliates had ever closed as a direct result of patient health and safety concerns, and so it disclosed
no further information about any incidents.

9a
On October 27, 2017, the Department sent a second re- quest to the Alliance for additional information about its application. It asked specifically for
a “complete ownership structure” for the Alliance including “parent, affiliate or subsidiary organizations,”
and a list of “all the abortion and health care facilities
currently operated by the applicant, including its parent, affiliate, or subsidiary organizations.” At the
time, “affiliate” was not defined in the statute, and, as
Fox knew, the Indiana code contained several different definitions. But the Department offered the Alliance no guidance on what it meant by “affiliate.” Indiana has characterized this omission as an intentional investigative technique designed to see
whether the Alliance would disclose the other clinics
that used the name “Whole Woman’s Health.”
In fact, much depended on what was meant by “affiliate.” The Alliance is a Texas 501(c)(3) nonprofit
corporation that owns and operates two other abortion clinics in Virginia and Texas. The Alliance’s president, CEO, and chair of the governing board of directors is Amy Hagstrom Miller. Before Hagstrom Miller
founded the Alliance, she ran Whole Woman’s Health
LLC (WWH), which is a separate for-profit company.
WWH is not a clinic of any kind. It is instead an administrative organization that contracts with different abortion care providers, including the Alliance, for
the provision of various business services such as
bookkeeping, human resources, regulatory compliance, public relations, and marketing. Throughout
the country there are other for-profit LLCs that run
abortion clinics under the name “Whole Woman’s
Health.” Those clinics also contract with WWH for

10a
similar services. They are owned by another entity,
which is in turn owned by Hagstrom Miller. Hagstrom
Miller describes this network as a “consortium,”
though it appears that the organizations are united
primarily by their common name, relationship to
WWH as a provider of business services, and relationship with Hagstrom Miller.
On December 8, 2017, the Alliance responded to
the October 27 request by identifying and explaining
the structure of the Alliance and its two other clinics.
It said nothing about WWH or any of the other LLCs
that use the name “Whole Woman’s Health” and contract with WWH for business services. The Department found this to be a disingenuous response. On
January 3, 2018, it sent a letter charging the Alliance
with “fail[ing] to disclose, conceal[ing], or otherwise
omitt[ing] information related to additional clinics.” It
accordingly denied the application based on the conclusion that the Alliance “fail[ed] to meet the requirement that the Applicant is of reputable and responsible character and the supporting documentation provided inaccurate statements or information.”
C
The Alliance filed an administrative appeal from
that decision on January 22, 2018. It argued that the
Alliance is a separate nonprofit entity and therefore
was not under any obligation to disclose any information about the independently run WWH businessservices company or other clinics around the country
using the name Whole Woman’s Health. An administrative law judge (ALJ) heard the appeal over two

11a
days in August 2018. There was extensive testimony
about the Alliance, WWH, Hagstrom Miller, the license application, and the Department’s review. The
Department contended that Hagstrom Miller ultimately controls all of these organizations, if not
enough to make their separation a legal fiction, at
least enough to make them “affiliates.”
On September 14, 2018, the ALJ rejected the Department’s position. She held that “no evidence provided during the proceedings … [suggests that the Alliance’s responses] were inaccurate, incomplete or
misleading. The Alliance demonstrated by a preponderance of the evidence that their responses … were
complete and accurate.” Indeed, the ALJ faulted the
Department for a lack of diligence, noting that it said
nothing to the Alliance about the specific concerns it
had based on the senators’ letters or its own “informal
investigation” on the internet. The ALJ concluded
that the Department failed to show by a preponderance of the evidence that the Alliance lacked the requisite character for a license, and recommended
granting the license.
The Department appealed the ALJ’s proposed order to its three-member Appeals Panel. By a two-toone vote, on December 18, 2018, the Panel agreed
with the Department that Hagstrom Miller “controls”
all of these entities, thus making them “affiliates.”
The Panel reasoned that although neither “control”
nor “affiliate” was specifically defined under Indiana
law, an Indiana intermediate appellate court had
adopted a definition the panel found useful in Combs
v. Daniels, 853 N.E.2d 156 (Ind. Ct. App. 2006).

12a
Combs was a suit brought by several students in a
state-operated special needs school, which the state
had decided to shut down. Among other things, the
plaintiffs argued that the state’s power un- der the
governing statutes to “administer” the school did not
include the power to close it altogether. The court rejected this point, and in that context had this to say:
“The statute gives unfettered control over the administration of [the school]. The plain meaning of ‘control’
is ‘the power or authority to manage, superintend, restrict, regulate, direct, govern, administer, or oversee,’ as well as the power to re- strain, check, or regulate.” Id. at 161. The case thus had nothing to do with
the licensing of health-care facilities, let alone abortion clinics. It is not terribly surprising that the Alliance did not realize that this was the definition the
state wanted to adopt.
In the end, the Appeals Panel did not rest its conclusion on any finding about the Alliance’s character.
It decided only that, based on the Combs understanding of affiliate (one that no one at the time of the request for information had called to the Alliance’s attention), the Alliance had provided inaccurate statements to the Department. For that reason its application failed. See 410 IND. ADM. CODE § 26-2-5(7).
While this appeal was underway, the Indiana legislature amended the licensing law on March 25,
2018, to provide a definition of “affiliate.” The new
definition tracks the direct or indirect “common control” definition that Indiana had urged in its arguments in the Alliance’s administrative appeal. The
amendment took effect on July 1, 2018, almost a year

13a
after the Alliance filed its application for a license.
See 2018 Ind. Legis. Serv. P.L. 205-2018 (S.E.A. 340)
(WEST) (codified at IND. CODE § 16-18-2-9.4).
At the state’s urging, the Alliance gave up the fight
over its initial disclosures and submitted a new application for a license on January 19, 2019. This time,
with the benefit of the new definition, the Alliance
conceded that WWH and the other Whole Woman’s
Health clinics throughout the country were “affiliates.” It asserted, however, that neither the Alliance
nor any of its affiliates operated an abortion clinic
that had been closed on account of patient health and
safety concerns. In support of that statement, it attached a declaration from Hagstrom Miller averring—under penalty of perjury— that none of the Alliance’s or WWH’s clinics has been denied a license.
The only potential exception to that track record,
Hagstrom Miller said, was one instance in which a
Texas clinic’s license was revoked based on an erroneous inspection finding. Hagstrom Miller furnished the
pertinent documents from the Texas Department of
State Health Services concerning that incident. Those
documents confirm that the license was restored eight
days after its revocation. While the records do not confirm that the initial findings were erroneous, they do
verify that all health and safety concerns were resolved within that short period.
This was not enough for the Department. It responded with a new and greatly expanded request for
information, including “copies of all reports, complaints, forms, correspondence, and other documents
that concern, mention, or relate to any investigation,

14a
inspection, or survey of the affiliate by any state or
other regulatory authorities at any time since and including January 1, 2014.” It asked for similarly broad
documents concerning affiliate license applications;
administrative enforcement actions; and administrative, civil, or criminal court actions involving all affiliates. The Alliance responded to this request by objecting that it was “exceptionally broad and burdensome.” At that point, the administrative process
ground to a halt: the Department never responded to
the objection either by defending the scope of its request or by offering to discuss more tailored discovery.
To date, the Department has neither granted nor denied the second license application.
D
Faced with this stalemate, the Alliance turned to
this law- suit. The complaint presents a broadside attack on Indiana’s abortion laws, charging that those
laws violate the Constitution in various respects. We
need not delve into those allegations, however, because the rest of those claims remain in the early
stages of discovery. The state initially sought to dismiss the case by claiming that the Alliance lacked
standing because it was not yet operating a clinic in
Indiana. The Alliance responded with a motion for a
preliminary injunction.
Our concern is only with the disposition of that
motion. The relief the Alliance requested is narrow: it
wanted to be allowed to open the South Bend clinic
and provide medication abortion care there while the

15a
case proceeds. Importantly for this interlocutory appeal, the Alliance represents that its request would
not otherwise affect the Indiana licensing law beyond
clearing the way for the Alliance to open its South
Bend clinic for that limited purpose.
The district court granted the Alliance’s motion,
after finding that it had satisfied the criteria for preliminary relief, including by showing a likelihood of
success on the merits. The district court supported
that finding in two ways. First, it found that the licensing law’s classifications offend the Equal Protection Clause insofar as they treat the class of women
seeking these medications for abortion purposes differently from the way they treat the class of women
who seek the identical medications, in the identical
doses, for purposes of re- solving a miscarriage. Second, it found that the entire licensing scheme as applied to the Alliance’s South Bend clinic un- duly burdens the right of women in northern Indiana to obtain
access to abortion care. The district court found that
the burden on access to abortion care for women in
northern Indiana greatly outweighed any “slight”
benefits Indiana might derive from any “further” inquiry into the Alliance’s application. It also described
as “slight” the benefits the state would derive from its
licensing regime, given the other regulatory tools
available to it. Finally, the court found the evidence
the Department had for doubting the Alliance’s character unpersuasive. In so ruling, the district court relied primarily on Whole Woman’s Health v. Hellerstedt, 136 S. Ct. 2292 (2016), and Planned Parenthood
of Southeastern Pennsylvania v. Casey, 505 U.S. 833
(1992).

16a
The district court’s original injunction reads as follows:
Defendants are ENJOINED from enforcing the provisions of Indiana Code § 16-21-22(4) (requiring Department to license); Indiana Code § 16-21-2-2.5(b) (penalty for unlicensed operation); and Indiana Code § 16-212-10 (necessity of license) against [the Alliance] with respect to the South Bend Clinic.
The state filed an interlocutory appeal from that
injunction. See 28 U.S.C. § 1292(a)(1). It also filed a
motion to stay the injunction pending its appeal, first
with the district court, which denied the stay motion,
and then with this court. In response to the stay motion, we concluded that “the injunction as written is
overbroad, as it purports to deal with the operation of
Indiana’s licensing scheme as a whole.” We thus took
“the immediate step of narrowing the injunction to
one against only the inclusion of facilities that provide
medical abortions … and only with respect to the proposed clinic in South Bend.” With the benefit of supplemental briefs, we then heard oral argument on the
stay motion.
We conclude that, as further narrowed by this
opinion, the preliminary injunction issued by the district court should stay in place. Understanding the
preliminary nature of this record, we review the district court’s findings of fact for clear error and its legal
conclusions de novo. United Air Lines, Inc. v. Air Line
Pilots Ass’n, Int'l, 563 F.3d 257, 269 (7th Cir. 2009).

17a
II
State licensing regimes are ubiquitous. There are
professional licenses for everyone from barbers, hairdressers, and real estate brokers to teachers, funeral
directors, and blackjack dealers. Generally speaking,
those regimes fall comfortably within the state’s police power; only rarely do they impinge on citizens’
fundamental constitutional rights. A person has the
right to the counsel of her choice, for example, but her
choice is limited to licensed attorneys. It is no surprise, then, that the Supreme Court has recognized
that states may require licenses of abortion care providers. After all, abortion care providers provide a
form of health care, which is a field that is heavily licensed and regulated by the state.
The Court’s recognition of the state’s power to license abortion care providers stretches back to Roe v.
Wade’s companion case, Doe v. Bolton, 410 U.S. 179,
200–01 (1973). The appellant in Bolton did not challenge the state’s requirement that abortions be provided only by licensed physicians. The Court confirmed the legitimacy of that type of restriction in
later cases. In Simopoulos v. Virginia, 462 U.S. 506
(1983), it held that a state could require second-trimester abortions to be per- formed in licensed clinics,
because it was “not an unreasonable means of furthering the State’s compelling interest in ‘protecting the
woman’s own health and safety.’” Id. at 519 (quoting
Roe v. Wade, 410 U.S. 113, 150 (1973)). Casey expanded on this point. 505 U.S. at 885. There the Court
said that “[o]ur cases reflect the fact that the Constitution gives the States broad latitude to decide that

18a
particular functions may be per- formed only by licensed professionals, even if an objective assessment
might suggest that those same tasks could be performed by others.” Id. By the mid-1990s, the proposition that a state may require only licensed physicians
to perform an abortion was so well established that a
lower court’s contrary conclusion merited summary
reversal. See Mazurek v. Arm- strong, 520 U.S. 968,
973–74 (1997).
It is therefore uncontroversial to say that a state
may require an abortion to be performed in a licensed
clinic or by a licensed professional. But to say that a
state may require a license does not mean that every
licensing regime, no matter how burdensome or arbitrary, passes constitutional muster. That has been
clear since Bolton, where the Court struck down Georgia’s requirement that every hospital at which an
abortion is performed be accredited by the Joint Commission on Accreditation of Hospitals (“JCAH”). 410
U.S. at 194–95. While the Court recognized that Georgia could “adopt standards for licensing all facilities
where abortions may be performed,” those standards
must be “legitimately related to the objective the
State seeks to accomplish.” Id. In that instance, JCAH
accreditation was an unnecessary extra hurdle given
that there was no evidence “that only the full resources of a licensed hospital, rather than those of
some other appropriately licensed institution, satisfy
[Georgia’s professed] health interests.” Id. at 195. The
Court reaffirmed this limitation in Simopoulos, stating that the state’s “discretion does not permit it to
adopt abortion regulations that depart from accepted

19a
medical practice.” 462 U.S. at 516. We take the following message from those cases: to the extent that Indiana’s licensing statute falls within “accepted medical
practice[s]” and is “legitimately related” to the state’s
interests in women’s health and fetal life, it passes
constitutional muster.
The district court strayed from this guidance when
it decided that Indiana’s entire licensing scheme was
unconstitutional. Indeed, most of Indiana’s licensing
statutes appear in- offensive. For example, its requirements that licensees must meet minimum
“[s]anitation standards,” have “[n]ecessary emergency equipment” and “[p]rocedures to monitor patients after the administration of anesthesia [and] …
provide follow-up care for patient complications,” are
all well within the realm of accepted regulations of
medical practices. See IND. CODE § 16-21-2-2.5(a)(2).
Even Indiana’s requirement that licensees have “reputable and responsible character” is nothing unusual
or suspect. IND. CODE § 16-21-2-11(a)(1). That requirement is mirrored by the character and fitness requirement administered by every state bar in the country.
See, e.g., Law Students Civil Rights Research Council,
Inc. v. Wadmond, 401 U.S. 154 (1971) (upholding the
constitutionality of New York’s character and fitness
requirement for attorneys). Consequently, to the extent the district court viewed Indiana’s licensing
scheme as unconstitutional because licensing provided insufficient benefits to the state as a general
matter, that conclusion cannot stand.

20a
But there is a critical difference between a facial
challenge to a statute’s text, and an as-applied challenge to a statute’s implementation. Here we deal
with the latter. We thus turn now to the state’s handling of the Alliance’s application.
III
To prove it is entitled to a preliminary injunction,
the Alliance must “establish that [it] is likely to succeed on the merits, that [it] is likely to suffer irreparable harm in the absence of preliminary relief, that
the balance of equities tips in [its] favor, and that an
injunction is in the public interest.” Winter v. Nat.
Res. Def. Council, Inc., 555 U.S. 7, 20 (2008). The district court found as a fact that refusing to allow the
South Bend clinic to open as a medication-abortion
only facility (or now, closing it down, as it has been
operating since the preliminary injunction took effect)
amounts to an irreparable constitutional harm that is
both “significant and obvious,” and with- out remedy
at law. Enforcing a constitutional right is in the public
interest. For present purposes, we therefore focus on
the “likelihood of success” requirement. This requires
us to consider in more detail the question whether the
state’s ad- ministration of the licensing requirement
has centered on legitimate questions about the Alliance’s ability to meet valid criteria, or if it has been a
pretextual exercise designed solely to block any kind
of abortion facility in South Bend.
There is no doubt that a “state has a legitimate interest in seeing to it that abortion ... is performed under circumstances that insure maximum safety for

21a
the patient.” Roe, 410 U.S. at 150. The state likewise
has a “legitimate interest in protecting the potentiality of human life. These interests are separate and
distinct.” Id. at 162. No matter how valid those interests may be, however, “[w]here state regulation imposes an undue bur- den on a woman’s ability to make
th[e] decision [to terminate her pregnancy] … the
power of the State reach[es] into the heart of the liberty protected by the Due Process Clause.” Casey, 505
U.S. at 874. The Alliance contends that at some point
during its efforts to obtain a license, the Department’s
actions crossed the constitutional line. What may
have started as a reasonable request for information
relevant to state concerns for patient safety and fetal
life ultimately became, it argues, an undue burden on
the right of South Bend-area women to obtain an
abortion.
“A finding of an undue burden is a shorthand for
the conclusion that a state regulation has the purpose
or effect of placing a substantial obstacle in the path
of a woman seeking an abortion of a nonviable fetus.”
Id. at 877 (emphasis added). Unconstitutional means
as well as ends violate the Due Process Clause.
“A statute with this purpose is invalid because the means chosen by the State to further the interest in potential life must be
calculated to inform the woman’s free
choice, not hinder it. And a statute which,
while furthering the interest in potential life
or some other valid state interest, has the
effect of placing a substantial obstacle in the

22a
path of a woman’s choice cannot be considered a permissible means of serving its legitimate ends.”
Id. (emphasis added). Casey’s command is straightforward: placing a substantial obstacle in the path of a
woman seeking a pre-viability abortion cannot be the
means of accomplishing another legitimate state interest, nor can it be the real purpose of a state action.
The undue-burden standard thus prohibits a state
from preventing access to abortions even if it does so
in pursuit of some other legitimate goal.
In Hellerstedt, the Supreme Court reaffirmed this
core holding from Casey and provided the framework
for how to determine whether a state action has unduly burdened access to abortion care either in purpose or effect. The Court stated that the undue-burden inquiry requires a holistic, rigorous, and independent judicial examination of the facts of a case to
determine whether the burdens are undue in light of
the benefits the state is permitted to pursue. 136 S.
Ct. at 2311. In other words, we are instructed to use
a balancing test, with careful heed to the record.
Planned Parenthood of Indiana & Kentucky, Inc. v.
Comm'r of Indiana State Dep't of Health, 896 F.3d
809, 818 (7th Cir. 2018) (citing Hellerstedt, 136 S. Ct.
at 2310) (“Not only does Whole Woman’s Health confirm that courts must apply the undue burden balancing test of Casey to all abortion regulations, it also dictates how that test ought to be applied. … The proper
standard is for courts to consider the evidence in the
record.”).

23a
The Hellerstedt Court also explained the importance of the judiciary’s role when invidious state
purposes are alleged. 136 S. Ct. at 2309. The Court
explicitly rejected the idea that a state is entitled to
rational-basis-style deference in this setting. Id. at
2309–10. Instead, “courts [must] consider whether
any bur- den imposed on abortion access is ‘undue’” by
“plac[ing] con- siderable weight upon evidence and argument presented in judicial proceedings.” Id. at 310.
[W]here constitutional rights are at stake … [u]ncritical deference to Congress’ factual findings ... is inappropriate.” Id. (quoting Gonzales v. Car- hart, 550
U.S. 124, 165–66 (2007)). Courts are required not only
to scrutinize the reasons given for a state action, but
also the evidence provided by the state supporting its
action. When the state burdens a constitutional right,
it must have a constitutionally permissible reason. If
the evidence does not sup- port the state’s proffered
reason, or it reveals instead an impermissible reason,
the state law cannot stand.
This conclusion flows from the more general proposition that the Constitution does not tolerate pretext
that covers up unconstitutional motives. “[It] is plain,
[that] … [a]n official action, … taken for the purpose
of [violating constitutional rights] has no legitimacy
at all under our Constitution.” City of Richmond, Virginia v. United States, 422 U.S. 358, 378 (1975) (remanding for further proceedings with respect to unconstitutional discriminatory purpose). In the realm
of constitution- ally protected rights, purpose matters. “Acts generally lawful may become unlawful
when done to accomplish an unlawful end.” Id. at 379
(quoting W. Union Tel. Co. v. Foster, 247 U.S. 105, 114

24a
(1918)). A purposeful state effort to undermine a constitutionally protected liberty interest is incompatible
with the Constitution. Casey prohibits state actions
that “serve no purpose other than to make abortions
more difficult.” Casey, 505 U.S. at 901.
Hellerstedt’s approach to pretext is instructive.
The Court focused on inconsistencies between the
purported legitimate state interest in women’s health
and the evidence in the record of the state’s (there,
Texas’s) actions. It found that the “facts indicate[d]
that the surgical-center provision imposes a requirement that simply is not based on differences between
abortion and other surgical procedures that are reasonably related to preserving women’s health, the asserted purpos[e] of the Act in which it is found.” 136
S. Ct. at 2315 (cleaned up). This revealing mismatch,
combined with further evidence of an incongruence
between the law’s requirements and the circumstances of abortion clinics, was key to the Court’s benefits analysis. It led to the conclusion that the challenged law did not serve the legitimate purpose of protecting women’s health and thus was “not necessary.”
Id. at 2316. By refusing to defer to a state’s purported
justifications, and instead carefully evaluating the
facts, the Court ensured that in conducting its balancing analysis, pretextual purposes do not receive any
weight on the “benefits” side of the ledger.
IV
Hellerstedt thus instructs us to scrutinize the
facts rigorously, in order to determine what the De-

25a
partment was doing with the Alliance’s license application over the past two years. The record before us
paints a troubling picture. A seemingly endless cycle
of demands for information, responses, and new demands does not suggest a bona fide process. At some
point, enough is enough. As courts throughout the nation recognize every day in resolving litigation discovery disputes, there comes a point where record
requests become so duplicative, or marginally (if at
all) relevant, that they are nothing but harassment.
Indiana’s most recent requests are particularly
concerning. Indiana has a declaration from Hagstrom Miller, made under penalty of perjury, that
none of the WWH or Alliance clinics has had trouble
obtaining or keeping licenses. Nonetheless, the
state’s document requests refuse to take her at her
word and demand voluminous proof from those organizations’ internal files directly. This strikes us as
the equivalent of asking if you have ever had a speeding ticket, and instead of accepting a sworn affidavit,
asking you to go to all 50 states, the District of Columbia, and the 14 U.S. territories (or why not all 195
countries in the world?) and obtain certifications
from each confirming that you have not. There is no
need for such scorched-earth tactics. Indiana is entitled to protect patient safety and fetal life through its
licensing scheme, but if it is doing little more than
throwing up one hurdle after another in an effort to
keep the Alliance’s doors closed, it has gone beyond
constitutional boundaries.
Looking at the considerable record it was able to assemble, the district court concluded that Indiana had

26a
not adequately justified the actions described above
and that the absence of a clinic in South Bend would
have the effect of imposing a “substantial obstacle in
the path of northern Indiana women.” In addition to
the documentation submitted in support of the Alliance’s two license applications for the South Bend
facility, the hearing before the ALJ and the appeal of
the first decision yielded a great deal of information.
In its May 25, 2018 filings alone, the Alliance answered 18 interrogatories and included 64 separate
exhibits. These submissions not only covered the history and structure of the Alliance, but also WWH and
its relationship with other Whole Woman’s Healthbranded clinics throughout the country. And that was
not all. As we have noted a couple of times, Hagstrom
Miller submitted a sworn declaration with the
amended license attesting that none of the Alliance’s
or any other Whole Woman’s Health clinic has been
denied a license, and that the one instance where a
Texas clinic’s license was revoked was based on an erroneous finding and the license was reinstated in just
eight days.
For purposes of this preliminary injunction, we see
no clear error in the district court’s conclusion that
Indiana has not given the Alliance’s license application a fair shake. Indiana argues that the evidence in
this record demonstrates that its actions were all
based on constitutionally permissible concerns for
women’s health or fetal life. The record before us,
however, does not support that conclusion. As the district court observed, it is not clear what else Indiana
expects to learn from these additional requests. It has

27a
not submitted evidence to support any continued concerns with the Alliance’s current staff, safety record,
or ability to comply with its laws. Indiana’s only specific concern appears to have been with a clinic administrator who is no longer affiliated with the Alliance,
and whose suspected connection to a discredited doctor is tenuous. The state must do more than this. At
this stage in the litigation, on this record, we agree
with the district court that the reasons Indiana asserts in support of its handling of the South Bend license are unsupported and outweighed by the substantial burden the state is imposing on women in
northern Indiana
We stress, however, that further development of
the record may affect this conclusion. If it does, then
additional modifications to the preliminary injunction
might be necessary. If the Alliance has failed to respond to reasonable requests for information, as the
state contends, then the Alliance can be compelled to
comply. But if, as the Alliance argues, the state is engaged in a subterfuge, ostensibly seeking information
that would pertain to licensing but in reality ensuring
that this clinic can never receive a license, then both
the preliminary relief and the ultimate disposition of
this part of the overall case would favor the plaintiffs.
At this juncture, bearing in mind that we review
decisions imposing or refusing preliminary injunctions deferentially, we conclude that the state’s motion to stay the district court’s injunction, as modified
in our order of June 21, 2019, must for the most part
be denied. Nevertheless, the state makes a strong
point when it defends the legitimacy of its licensing

28a
process and argues that a wholesale exemption from
licensing will tie its hands in an unwarranted way.
We think the best way to accommodate the state’s
legitimate interest in licensing during the pendency
of this litigation is to modify the preliminary injunction further, to clarify that the South Bend clinic is
not, uniquely among such clinics in Indiana, exempt
from licensing. We can accomplish this by enjoining
the state either to treat Whole Woman’s Health of
South Bend as if it had a provisional license under 410
IND. ADMIN. CODE § 26-2, or actually to grant such a
provisional license, to be effective (in the absence of a
failure to comply with valid licensing criteria) until
the district court issues a final judgment on the merits of the case. This modification of the injunction will
ensure that the state continues to have its normal regulatory power over the clinic, including the power to
conduct inspections pursuant to IND. CODE § 16-21-22.6. The district court is hereby directed to issue a revised preliminary injunction under Federal Rule of
Civil Procedure 65(d) that reflects this change.
Furthermore, even before the merits are resolved,
the parties are entitled to continue their examination
of the state’s handling of the licensing process. Although we do not mean to limit the district court’s discretion in conducting such an inquiry, we offer some
thoughts about questions that would shed light on
what is going on. They include the following:


How has the Department handled previous license applications from abortion clinics?

29a













What specific evidence of wrongdoing was
given to the Department in support of its initial concerns about WWH? Did it attempt to
verify that information?
What evidence did the Department have of a
connection between the Alliance and a clinic
that had been closed by Indiana in the past?
What objection, if any, does the state still
have against Dr. Jeffrey Glazer, the Medical
Director of the clinic?
Did the Department have reason to doubt the
honesty of the Alliance’s disclosures? What
was it? Did the Department understand the
meaning of “affiliate” to be ambiguous at the
time it required the Alliance to disclose its
“affiliates”? Why didn’t it specify the information it was seeking?
Can the Department point to other instances
in which it has withheld guidance on the
meaning of an ambiguous term in state law
in order to assess the honesty or accuracy of
a license applicant?
Did the Department make a specific finding
that the evidence submitted by the Alliance
was inadequate? What was the basis for that
finding? If no finding was made, why not?
What information supported each of the February 2019 supplemental requests? How did
they relate to or advance the state’s interests?
Are there privacy protections for materials
turned over as part of obtaining a license?
How was the state prepared to comply with
statutes protecting the medical records of
third parties or patients?

30a
As we indicated earlier, depending on later developments in the record, the district court may need to
modify the preliminary injunction further. On the
other hand, since that injunction relates only to the
South Bend facility, the court may determine that no
further changes are called for.
V
Almost all the harms Indiana cites have to do with
its ability to enforce the rest of its regulatory scheme
on licensed clinics. Since we uphold its ability to do so
pursuant to the Alliance’s de facto or real provisional
license for the South Bend clinic, the harm to the state
of imposing the preliminary injunction as modified by
our earlier order and this opinion is de minimis, compared to the significant harm the Alliance and its clients would experience from closure of the clinic.
Because we have concluded that, on the present
record, the Alliance has shown a likelihood of success
on the merits of its undue-burden challenge, we need
not address its equal protection arguments. This is
also not the time to address the parties’ broader arguments about Indiana’s licensing scheme. We AFFIRM
the district court’s grant of the preliminary injunction
as modified in accordance with this opinion.

31a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
WHOLE WOMAN’S HEALTH
ALLIANCE, et al.,

)
)
)
Plaintiffs,
)
)
No. 1:18-cvv.
) 01904-SEB-MJD
)
CURTIS T. HILL, JR., Attorney )
General of the State of Indiana, )
in his official capacity, et al.,
)
)
Defendants.
)

ORDER ON MOTION FOR PRELIMINARY
INJUNCTION (DKT. 76)
Plaintiff Whole Woman’s Health Alliance
(WWHA) applied to the Indiana State Department of
Health (“the Department”) and its commissioner
Kristina Box, Defendant here in her official capacity,
for a license to operate an abortion clinic in South
Bend, Indiana (“the South Bend Clinic”). The Department initially denied WHHA’s application. WWHA
applied again but abandoned its effort when it came
to perceive its second application was futile.
Now before the Court is Plaintiffs’ motion for a
preliminary injunction enjoining the Department’s
implementation of the licensing requirement as to the

32a
South Bend Clinic. Dkt. 76. For the reasons given below, the motion is granted.
Background
We begin with (I) an overview of the abortion procedure to be offered at the South Bend Clinic and (II)
a review of the availability of abortions generally to
women in and around South Bend. We next (III) review Indiana’s history of abortion regulation and specifically (IV) its licensure requirements. We conclude
(V) by summarizing the administrative proceedings
on WWHA’s license applications and (VI) by setting
forth a discussion as to the posture of the instant motion.
I. Medical Abortions
As one researcher has noted, “in the United States,
nearly half of [all] pregnancies are unintended, and
22% of all pregnancies (excluding miscarriages) end in
termination.” Defs.’ Ex. 6, at 1. 1 Medical (or medication) abortions, as opposed to surgical abortions, are

1 Citations to “Tr.” refer to the transcript of the hearing on
Plaintiffs’ motion we conducted on April 22, 2019. Citations to
“Pls.’ Ex.” refer to the submissions in support of Plaintiffs’ opening brief at Dkt. 76. Citations to “Pls.’ Reply Ex.” refer to the
submissions in support of Plaintiffs’ reply brief at Dkt. 104. Citations to “Defs.’ Ex.” refer to the submissions in support of Defendants’ opposition brief at Dkts. 92–97, 101. The pagination
used is that of the .pdf files on the CM/ECF system except when
cited in the form “XX:YY,” which refers to the internal pagination and lineation of a deposition transcript.
1

33a
performed by the administration of a chemical abortifacient or combination of them. According to the
American College of Obstetricians and Gynecologists
(ACOG), most medical abortions in the United States
today are performed by administering the drug mifepristone in conjunction with the drug misoprostol.
Defs.’ Ex. 8, at 1–2. Both are dispensed in pill form.
WWHA proposes to provide medical abortions using
this regimen at the South Bend Clinic; it does not intend to provide surgical abortions at that location.
Pls.’ Ex. 10, at 32.
Mifepristone, also known by the brand name Mifeprex or the developer’s code RU 486, was first developed in the early 1980s and made publicly available
in 1988 after the French Minister of Health, declaring
it “the moral property of women, not just the property
of the drug company,” ordered its developer to begin
marketing it in France. Steven Greenhouse, France
Ordering Company to Sell Its Abortion Drug, N.Y.
Times, Oct. 29, 1988, at A1.
It was first approved for marketing in the United
States by the U.S. Food and Drug Administration
(FDA) in 2000 for use with misoprostol, also known by
the brand name Cytotec. Defs.’ Ex. 16, at 1; Pls.’ Ex.
1, at 4. In addition to their use as abortifacients, mifepristone and misoprostol are also used together in
the treatment of incomplete or difficult miscarriages.
Courtney A. Schreiber et al., Mifepristone Pretreatment for the Medical Management of Early Pregnancy
Loss, 378 New Eng. J. Med. 2161 (2018). Mifepristone
is among the small number of drugs FDA subjects to
a Risk Evaluation and Mitigation Strategy (REMS),

34a
which among other things prohibits mifepristone
from being dispensed in pharmacies; it is available to
patients only directly from physicians who have executed supplier agreements with the drug’s U.S. licensee. Defs.’ Ex. 16, at 1. But for the REMS, mifepristone would be available by prescription.
Today, the FDA-approved abortifacient regimen
provides for administration of the two drugs through
70 days of fetal gestation, as measured by the number
of days from the patient’s last menstrual period
(LMP). Defs.’ Ex. 16, at 1. (The current FDA-approved
regimen was adopted in 2016. The originally approved regimen was found by clinicians and researchers to be suboptimal; an “evidence-based regimen”
was developed in response. In 2016, FDA approved a
new label for mifepristone incorporating the “evidence-based regimen.” See Defs.’ Ex. 16, at 1; Pls.’ Ex.
1, at 4–5.) The patient first takes a dose of mifepristone orally. The mifepristone blocks the further
growth and development of the fetus. Between 24 to
48 hours later, she takes a dose of misoprostol buccally “at a location appropriate for the patient.” Defs.’
Ex. 16, at 1. Often this location is the patient’s home.
See Pls.’ Ex. 1, at 6. The misoprostol causes the uterus
to contract and expel its contents in a process “resembl[ing] a miscarriage[.]” Id. “If there were a major
complication associated with a medication abortion, it
would occur after the patient left the abortion facility
since the medications take time to exert their effects.”
Id. at 8.

35a
Fewer than 5 percent of patients remain pregnant
following a medical abortion; fewer than 1 percent remain pregnant following a medical abortion within 63
days LMP. Defs.’ Ex. 8, at 5; Pls.’ Ex. 1, at 6. Patients
with “a persistent gestational sac” one week after receiving mifepristone may be treated by an additional
dose of misoprostol, by surgical intervention, or may
not require any additional intervention. Defs.’ Ex. 8,
at 5. ACOG recommends that medical abortion providers either be trained to perform surgical abortions
as needed or else be able to refer a patient to a clinician who is. Id.
“Bleeding and cramping will be experienced by
most women undergoing medical abortion and are
necessary for the process to occur.” Id. at 3. Other
common adverse effects include “nausea, vomiting, diarrhea, headache, dizziness, and thermoregulatory
effects.” Id. Abortion generally has a low risk of fatal
and nonfatal complications. The risk of death is lower
than that from a penicillin injection, as well as that
from childbirth. Pls.’ Ex. 1, at 3. One study of more
than 230,000 medical-abortion patients found an
overall complication rate of 0.65 percent. Pls.’ Reply
Ex. 2, at 2. The rate of complications requiring hospital admission was found to be 0.06 percent; of complications requiring emergency-room treatment, 0.10
percent. Id. The risk to the patient varies directly
with the gestational age of the fetus: the longer she
waits, the more dangerous abortion becomes. Pls.’ Ex.
1, at 3.

36a
One study concluded that “[t]heoretically, it appears that the mechanisms of mifepristone action favor the development of [Clostridium sordellii] infection that leads to septic shock,” Defs.’ Ex. 9, at 1,
though “it has since become evident that no specific
connection exists between clostridial organisms and
medical abortion.” Defs.’ Ex. 8, at 8. Another study, a
review of fourteen years’ literature on the topic, found
a “moderate to highly increased risk of mental health
problems after abortion” generally. Defs.’ Ex. 7, at 1.
Further literature reviews, however, including of the
previously cited study, have found that unwanted
pregnancies carry the same risks to mental health no
matter whether the pregnancy is carried to term. See
Pls.’ Reply Ex. 2, at 3. Mifepristone may be the cause
of “excessive hemorrhage” not seen in surgical abortions. Defs.’ Ex. 10, at 1. Similarly, one study found
that, while surgical and medical abortions “are generally safe, . . . medical termination is associated with a
higher incidence of adverse events” relative to surgical termination. Defs.’ Ex. 6, at 1. Dr. Allison Cowett,
one of Plaintiffs’ experts, finds that study “to have
several limitations which call into question its findings[,]” Pls.’ Reply Ex. 2, at 2, though she does not
elaborate her concerns for a lay readership. See id.
Undisputed, however, is the gravity of the abortion decision, as well as the fact that the personal experiences of women who have received medical abortions vary widely. For some, the prospect of taking the
misoprostol at home promises “comfort and familiarity.” Pls.’ Ex. 2, at 4. Further, “[p]atients have reported that they feel more in control of what is happening to their bodies with medication abortion” as

37a
opposed to surgical abortions. Pls.’ Ex. 1, at 5. Others,
however, experienced intense physical pain, found
themselves traumatized by the experience of passing
their pregnancies by themselves, and deeply regret
their decisions. Defs.’ Ex. 11, at 3; Defs.’ Ex. 12, at 3,
6; Defs.’ Ex. 13, at 3–4; Defs.’ Ex. 14, at 2; Defs.’ Ex.
15, at 3.
II. Access to Abortion in Northern Indiana
Indiana currently has six licensed abortion clinics.
Three are located in Indianapolis, at the center of the
state. One is located in Lafayette, northwest of Indianapolis and approximately one third of the way between Indianapolis and Chicago. One is located in
Bloomington, southwest of Indianapolis and approximately halfway between Indianapolis and Indiana’s
southern border. One is located in Merrillville, in the
northwest corner of the state close to Chicago.
South Bend, Indiana’s fourth most populous city,
is located north of Indianapolis near the IndianaMichigan state line and approximately halfway between Indiana’s western and eastern borders. It is
home to two universities, Indiana University South
Bend and the University of Notre Dame, as well as
several smaller colleges, including St. Mary’s College.
South Bend is approximately 65 miles from Merrillville, 107 miles from Lafayette, 150 miles from Indianapolis, and 199 miles from Bloomington. Fort
Wayne, Indiana’s second most populous city after Indianapolis, lies in the northeastern corner of the state
near the Indiana-Ohio state line and is approximately
86 miles from South Bend, 114 miles from Lafayette,

38a
124 miles from Merrillville, 126 miles from Indianapolis, and 176 miles from Bloomington.
There is an unmet demand for abortion services in
and around South Bend, and more broadly in northcentral and northeastern Indiana. That is, there are
women living in these areas who desire to terminate
their pregnancies but, in Indiana, cannot. See Pls.’ Ex.
1, ¶ 35 (Cowett Decl.) (“WWHA is trying to open a
clinic in South Bend because abortion access is very
limited in northern Indiana. . . . [As an abortion provider in Chicago,] [a]t least 20% of [Cowett’s] patients
are from out of state, including Indiana.”); Pls.’ Ex. 3,
¶¶ 32 (Hagstrom Miller Decl.) (“Based on . . . outreach
[from a group of local physicians, academics, and activists] and [WWHA’s] own independent research,
[WWHA] determined that South Bend is an underserved community. There is substantial demand for
abortion care in the region, but no local providers.”),
65 (“Nearly all the physicians to whom [WWHA]
reached out [to serve as the South Bend Clinic’s
backup doctor] were supportive of WWHA’s plans to
open an abortion clinic in South Bend[.]”); Pls.’ Ex. 5,
¶¶ 12 (Guerrero Decl.) (Plaintiff All-Options, Inc., has
“facilitated rides” to abortion providers for women
seeking abortions in South Bend but is “unable to
meet the transportation needs of all people in northern Indiana seeking abortion.”), 17 (“The barriers
[Plaintiff All Options’s] clients face make[] it difficult,
and sometimes impossible, for them to obtain abortion care in Indiana.”); Pls.’ Ex. 6, ¶ 9 (Lidinksy Decl.)
(“Some [of Lidinsky’s undergraduate students] find
the burdens of obtaining abortion care within Indiana
to be insurmountable. Many of these students travel

39a
to Chicago[.]”); Pls.’ Ex. 7, ¶ 14 (Stecker Decl.) (“Many
physicians [WWHA] reached out to [to serve as the
South Bend Clinic’s backup doctor] were very supportive of WWHA opening an abortion clinic in South
Bend. They told [WWHA] that the clinic would fill a
much-needed gap [sic] in care.”); Pls.’ Ex. 8, ¶ 24
(Whipple Decl.) (Unless the South Bend Clinic opens,
“[a]t worst, [abortion care] will be for[e]gone altogether.”); Defs.’ Ex. 1, 71:14–19 (Hagstrom Miller
Dep.) (“[WWHA] ha[s] formed relationships in South
Bend with many people who’ve lived in the community for a long time, and [Hagstrom Miller] know[s]
that having a safe abortion facility in that community
would meet a need in Northern Indiana that’s currently not being met[.]”).
Why the demand for abortion care in north-central
and northeastern Indiana cannot be met by the six
extant Indiana abortion clinics may be traced to a confluence of factors, though the shortest correct answer,
as often, is power. It can be difficult for federal judges
and federal litigators, from our comfortable vantage
points, to understand how completely the everyday
life of another may be outside of her control—but we
must try to understand it. For women in northern Indiana who enjoy ample financial means, supportive
personal relationships, and power over their own conditions of labor and movement, the scarcity of abortion access there likely presents an insubstantial burden. But many women in these areas (as in most) do
not enjoy those advantages, and lacking even one of
them can cause substantial difficulties. See Pls.’ Ex.
2, ¶ 14; Pls.’ Ex. 3, ¶ 32; Pls.’ Ex. 6, ¶ 11.

40a
The primary burden is travel. No direct lines of
public transportation connect South Bend to Merrillville, Indianapolis, Lafayette, or Bloomington. Thus,
reliable private transportation is almost required to
make the minimum 130-mile, maximum 398- mile,
round trip. Naturally the poorer the patient the less
likely that such reliable private transportation is
available. The well known vagaries of weather- and
road conditions in northern Indiana can make the extent of the travel burden difficult to anticipate precisely, especially when coupled with unreliable transportation. This unpredictability in turn increases the
difficulty of making all other necessary arrangements, as detailed below. Moreover, because “patients
usually begin passing the pregnancy between one and
four hours after taking the misoprostol, the second
medication in the medical abortion regimen[,]” medical-abortion patients driving long distances to obtain
the abortion may be “le[ft] . . . to cramp and bleed en
route to home.” Pls.’ Ex. 1, ¶ 18. Finally, requiring
women seeking abortions to leave their communities
causes in some feelings of criminalization or ostracization. Pls.’ Ex. 6, ¶ 11.
The travel burden increases the overall cost of the
procedure, which is substantial for those on fixed or
limited incomes, for whom “[u]nexpected expenses are
difficult to manage[,]” Pls.’ Ex. 2, ¶ 13; those without
private health insurance covering abortion; and those
on Indiana’s low-income health insurance program,
“which cover[s] abortions only in very limited circumstances.” Pls.’ Ex. 5, ¶ 9. As many as twenty northern
Indiana clients of Plaintiff All Options “have been unable to pay rent or utility bills due to having to pay for

41a
abortion care[.]” Defs.’ Ex. 18, 37:6–15. Five have
pawned belongings. Id. 37:16–22. Some have taken
out short-term “payday” loans at confiscatory interest
rates. As abortion costs (as well as risks) increase
with gestation, even minor delays in obtaining an
abortion can increase costs significantly. See Pls.’ Ex.
5, ¶ 16; Defs.’ Ex. 18, 43:2–9.
The impacts of the travel burden are compounded
by a mandatory eighteen-hour waiting period, the
statutory basis for which is discussed in Part III, infra. The upshot is, a woman seeking a medical abortion must visit the abortion clinic twice, once at least
eighteen hours before receiving the medications, and
again to receive them. Thus, the trip must be undertaken twice over two or more days, or overnight accommodations near the clinic must be secured.
These burdens are compounded again if the
woman seeking an abortion is, as nearly all persons
are, responsible to and for others. If she has dependent children, or dependents of any description, they
must be accommodated on the trip or at home during
her absence. If she is employed, her employer must be
asked for time off work. If she is a student, she must
miss class or an exam. If she is married or in a close
relationship, she will be expected to explain her absence to her spouse or partner.
By all accounts, South Bend appears to be an inhospitable environment for abortion seekers and
abortion providers. An unmarried woman may encounter difficulty obtaining even contraception there.
E.g., Pls.’ Ex. 2, ¶¶ 2 (recounting physician advice

42a
that IUDs appropriate only for married women and
that having multiple sexual partners causes infertility), 16 (student at university opposed to contraception has difficulty accessing birth control with university-sponsored insurance, increasing likelihood of unintended pregnancy). That is in part why WWHA
seeks to operate there, as will be discussed further.
Part V, infra. Dr. Ellyn Stecker practiced ob/gyn medicine in South Bend for thirty-five years and finds
“pervasive” hostility to abortion there. Pls.’ Ex. 7, ¶7.
She furnishes anecdotal examples of that hostility
and its consequences, both for abortion seekers and
abortion providers. See id. ¶¶ 7–9, 15–18, 19 (“leads
providers in our community to fear counseling pregnant patients about their options”). Also Pls.’ Ex. 2, ¶
17; Pls.’ Ex. 3, ¶ 65.
This social context exacerbates the burdens on
women seeking abortions who rely on and are responsible to others. Child care (or other dependent care) is
more difficult to find or is foregone entirely because
“there’s a lot of folks that don’t know who to ask[,]”
particularly for two days’ care. Defs.’ Ex. 18, 41:11–
15. An employer’s, professor’s, or partner’s hostility to
abortion may increase the necessity for, and risks of,
“sneak[ing] around” them. See Pls.’ Ex. 6, ¶ 10.
The obstacles to obtaining abortions in northern
Indiana are such that women find it easier to travel
out of state to Chicago, bypassing nearby Merrillville,
to obtain abortions there. Pls.’ Ex. 1, ¶ 35; Pls.’ Ex. 6,
¶ 9.

43a
III. Indiana’s Regulation of Abortion Since Roe
Swift and hostile was the reaction of the Indiana
General Assembly to the Supreme Court’s 1973 decisions in Roe v. Wade, 410 U.S. 113, and Doe v. Bolton,
410 U.S. 179. Disavowing any “intent . . . to
acknowledge that there is a constitutional right to
abortion on demand,” but finding itself “controlled to
a certain extent” by Roe and Doe, the General Assembly that same year inaugurated Indiana’s contemporary regime of abortion regulations. Act effective May
1, 1973, Pub. L. No. 322, § 1, 1973 Ind. Acts 1740,
1740–41. The history of that regime in relevant part
is reviewed below.
From 1973, abortion was a felony under Indiana
law unless, if performed in the first trimester, performed by a licensed physician in a licensed hospital,
ambulatory outpatient surgical center, or other licensed health facility; or, if performed thereafter, performed by a physician in a hospital or ambulatory outpatient surgical center. Id., § 2, 1973 Ind. Acts at
1742–43 (formerly codified at Ind. Code § 35-1-58.52(a)–(c)). The patient was required to file with the
physician her written consent to the abortion no fewer
than twenty-four hours before receiving it, id. at 1744
(formerly codified at Ind. Code § 35-1-58.5-2(d)), and
the physician was required to report to the Department ten items of information for each abortion he
performed, including where it was performed. Id. (formerly codified at Ind. Code § 35-1-58.5-5).

44a
The 1973 regulations were repealed and replaced
in 1993, the year after the Supreme Court “reaffirm[ed]” Roe’s “central holding” in Planned
Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833, 879 (1992). The substantive regulation
of the abortion procedure was moved from title 35 of
the Indiana Code, criminal law, to title 16, public
health, a new article treating abortion exclusively being added to title 16 to accommodate the shift. Act of
April 30, 1993, Pub. L. No. 2-1993, §§ 17, 209, 1993
Ind. Acts 244, 568, 1109 (codified in relevant part at
Ind. Code art. 16-34).
The 1993 regulations permitted a first-trimester
abortion to be performed in an unlicensed setting. See
id., § 17, 1993 Ind. Acts at 568–69 (codified at Ind.
Code §§ 16-34-1-4, 16-34-2-1). Later-term abortions
were still required to be performed in licensed hospitals or ambulatory outpatient surgical centers. Id. at
569 (codified at Ind. Code § 16-34-2-1). The 1993 regulations continued to require the filing of the patient’s
written consent and the reporting to the Department
of the same ten items of information for each abortion
performed. Id. at 569, 572–73 (codified at Ind. Code
§§ 16-34-2-1, 16-34-2-5).
The General Assembly substantially expanded the
written-consent requirement in 1995. Establishing
the patient’s “voluntary and informed consent” now
required detailed disclosures to her by the physician,
including information on the “probable gestational
age of the fetus” and “an offer to provide a picture or
drawing of a fetus[.]” Act of April 26, 1995, Pub. L. No.

45a
187-1995, § 4, 1995 Ind. Acts 3327, 3328 (internal subdivisions omitted) (codified at Ind. Code § 16-34-21.1). The informed-consent requirement has continued lobster-like to grow in scope and complexity until
the present. See Ind. Code § 16-34-2-1.1 (most recently substantively amended by Act of March 24,
2016, Pub. L. No. 213-2016, § 14, 2016 Ind. Acts 3099,
3105). Today, as relevant here, the patient’s consent
is deemed “voluntary and informed only if” the required information is provided to her “[a]t least eighteen . . . hours before the abortion” in a “private, not
group,” setting by the physician who will perform the
abortion, the physician who referred the patient for
an abortion, or their qualified delegate. Id. § 16-34-21.1(a)(1). (It is possible that the required information
may be communicated to the patient at a location
other than the clinic at which the abortion will be performed, so long as all the statutory conditions are satisfied, see Defs.’ Ex. 18, at 43–44, but it does not appear that this is an option for WWHA, which proposes
to operate only one office or facility.)
From 1993 to 2005, abortions not performed in
hospitals or ambulatory outpatient surgical centers
were performed in unlicensed facilities. (As already
noted, mifepristone was approved by FDA in 2000.)
As the Indiana General Assembly debated a raft of
new abortion-clinic regulations in 2006, state Representative Marlin Stutzman remarked, “It’s been over
30 years that abortion clinics have operated without
any type of [facilities] regulation[.] . . . We need to get
them up to date as quickly as possible.” Greg Hafkin,
Abortion Clinics May Have to Close, Indianapolis

46a
Star, Feb. 3, 2006, at B1 (original alteration parentheses changed to brackets). In 2005, “abortion clinic” received for the first time a statutory definition and
“abortion clinics” were subjected to the same licensure
requirements as hospitals and ambulatory outpatient
surgical centers. Act of April 26, 2005, Pub. L. No. 962005, §§ 2, 6, 2005 Ind. Acts 1897, 1899, 1900 (codified
at Ind. Code §§ 16-18-2-1.5, 16-21-2-2(4)). “Abortion
clinic” was defined as “a freestanding entity that performs surgical abortion procedures”; facilities providing medical abortions were not within the definition.
Id., § 2, 2005 Ind. Acts at 1899 (codified at Ind. Code
§§ 16-18-2-1.5).
From 2005 to 2013, a medical abortion that was
not provided by a hospital (presumably none were
provided in ambulatory outpatient surgical centers)
was perforce provided in an unlicensed setting. In
2013, as part of a broader effort to regulate the provision of medical abortions specifically, medical-abortion providers were brought within the definition of
“abortion clinics,” and thereby subject to licensure requirements, unless “abortion inducing drugs [were]
not the primarily dispensed or prescribed drug” at the
provider’s facility. Act of May 1, 2013, Pub. L. No. 1362013, § 2, 2013 Ind. Acts 1002, 1002 (formerly codified
at Ind. Code § 16-18-2-1.5(a)(2), (b)(3)(B)). Soon after
the new definition took effect on July 1, 2013, this
Court preliminarily enjoined its operation as violative
of equal protection. Planned Parenthood of Ind. & Ky.,
Inc. v. Comm’r, Ind. State Dep’t of Health, 984 F.
Supp. 2d 912, 925, 931 (S.D. Ind. 2013) (Magnus-Stinson, J.). A permanent injunction to the same effect
was entered late the following year. See Planned

47a
Parenthood of Ind. & Ky., Inc. v. Comm’r, Ind. State
Dep’t of Health, 64 F. Supp. 3d 1235, 1258, 1260 (S.D.
Ind. 2013) (Magnus-Stinson, J.).
In 2015, the General Assembly repealed the enjoined definition of “abortion clinic” and replaced it
with a new one, which continues in force today. Act of
April 30, 2015, Pub. L. No. 92-2015, § 1, 2015 Ind.
Acts. 633, 633 (codified at Ind. Code § 16-18-21.5(b)(3)). Now a medical-abortion provider is an
“abortion clinic,” and thereby subject to licensure requirements, unless the provider “provides, prescribes,
administers, or dispenses an abortion inducing drug
to fewer than five (5) patients per year for the purposes of inducing an abortion.” Ind. Code § 16-18-21.5(b)(3). Unquestionably, the South Bend Clinic
qualifies as an “abortion clinic” under this definition.
IV. The Licensing Law
Plaintiffs’ lawsuit attacks a set of statutory provisions they refer to here as the “Licensing Law.” Br.
Supp. 1 (citing Ind. Code §§ 16-18-2-1.5, 16-21-1-9, 1621-2-2.5, 16-21-2-10, 16-21-2-11). Other licensing provisions bear on this case as well, see Compl. ¶ 82(b),
though Plaintiffs have not organized them under the
“Licensing Law” rubric for purposes of the instant motion for a preliminary injunction. Below, we review
these provisions and their role in Indiana’s broader
regime of abortion regulation.
The Licensing Law is codified in scattered sections
of title 16 (“Health”), article 21 (“Hospitals”) of the Indiana Code. As noted above, Indiana Code § 16-18-2-

48a
1.5 defines “abortion clinic,” and thereby the universe
of health care providers subject to regulation as such,
as “a health care provider . . . that[] performs surgical
abortion procedures[] or . . . provides an abortion inducing drug for the purpose of inducing an abortion[,]”
excepting licensed hospitals, licensed ambulatory outpatient surgical centers, and providers who administer medical abortions to fewer than five patients per
year. “Abortion” is defined as “the termination of human pregnancy with an intention other than to produce a live birth or to remove a dead fetus[,]” id. § 1618-2-1, thus excluding spontaneous pregnancy loss or
miscarriage and its treatment.
Indiana Code § 16-21-2-10 provides that a person
“must obtain a license” from the Department “before
establishing, conducting, operating, or maintaining . .
. an abortion clinic,” as well as a hospital, ambulatory
outpatient surgical center, or birthing center. Operating or advertising the operation of an unlicensed abortion clinic is a Class A misdemeanor. Ind. Code § 1621-2-2.5(b). See id. § 35-50-3-2 (Class A misdemeanants liable to maximum one year’s imprisonment and
$5,000 fine). Indiana Code § 16-21-2-2 (cited at
Compl. ¶ 82(b)) provides that the Department “shall
license and regulate” abortion clinics, as well as hospitals, ambulatory outpatient surgical centers, and
birthing centers. A license is valid for one year. Ind.
Code § 16-21-2-14 (cited at Compl. ¶ 82(b)). It may be
renewed annually. Id.
Indiana Code § 16-21-2-11 establishes the requirements for applying for and receiving a license. An

49a
abortion-clinic applicant must show that it is “of reputable and responsible character” and that it is “able
to comply with the minimum standards for . . . an
abortion clinic . . . and with rules adopted [by the Department] under this chapter [scil., Ind. Code ch. 1621-2].” Ind. Code § 16-21-2-11(a)(1)–(2). The application must also contain the applicant’s name, proposed
location of operation, and other similar information,
as well as any “[o]ther information [the Department]
requires.” Id. § 16-21-2-11(b).
Beginning July 1, 2018, abortion-clinic applicants,
and only they, must also
(1) Disclose whether the applicant, or an owner or
affiliate of the applicant, operated an abortion clinic
that was closed as a direct result of patient health and
safety concerns.
(2) Disclose whether a principal or clinic staff
member was convicted of a felony.
(3) Disclose whether a principal or clinic staff
member was ever employed by a facility owned or operated by the applicant that closed as a result of administrative or legal action.
(4) Provide copies of:
(A) administrative and legal documentation relating to the information required
under subdivisions (1) and (2);
(B) inspection reports; and
(C) violation remediation contracts;
if any.
Id. § 16-21-2-11(d). “Affiliate” has its own statutory
definition for these purposes, which is, “[A]ny person

50a
who directly or indirectly controls, is controlled by, or
is under common control of another person.” Id. § 1618-2-9.4. Both the new application requirement and
the “affiliate” definition were enacted in 2018. Act of
March 25, 2018, Pub. L. No. 205-2018, §§ 3, 6, 2018
Ind. Acts 2930, 2931, 2934. The content of these provisions and the timing of their enactment strongly
suggest that they were adopted in response to the first
license application WWHA submitted for the South
Bend Clinic, discussed further below.
As Indiana Code § 16-21-2-11(a)(1)(2) requires a license applicant to show it is able to meet the “minimum standards” applicable to its proposed facility
and to comply with the Department’s rules, Indiana
Code § 16-21-2-2.5 requires the Department to adopt
rules for abortion clinics (as well as birthing centers,
but not hospitals or ambulatory outpatient surgical
centers, though cf. Ind. Code § 16-21-1-7 (cited at
Compl.¶ 82(b)) which establish “minimum license
qualifications”; prescribe policies for maintaining
medical records; establish procedures for the issuance, renewal, denial, and revocation of licenses; prescribe procedures and standards for inspections by
the Department; prescribe procedures for implementing and enforcing remedial plans designed to redress
violations of the applicable standards; and establish
eleven further requirements, including “[s]anitation
standards,” “[i]nfection control,” and “[a]nnual training by law enforcement officers on identifying and assisting women who are[] coerced into an abortion[.]”
Ind. Code § 16-21-2-2.5(a).

51a
The Department’s rules for abortion clinics are
contained in title 410, article 26 of the Indiana Administrative Code. (Under Indiana Code § 16-21-1-9,
the Department may waive a rule for good cause, so
long as waiver will not endanger the clinic’s patients.
It is not clear why Plaintiffs attack this section as part
of the Licensing Law.) Rule 2 governs licensure. Section 4 of that rule, 410 Ind. Admin. Code 26-2-4(a),
provides that the Department will review license applications for compliance with the “reputable and responsible character” requirement, Ind. Code § 16-212-11(a)(1), and the requirement to show ability to
comply with applicable standards. Id. § 16-21-211(a)(2). If the applicant fails to comply with the application or licensure standards, the Department may
request additional information, conduct further investigation, or deny the application. 410 Ind. Admin.
Code 26-2-4(b).
Section 5 of the rule states that the Department
may deny an application
(1) If the licensee or licensees are not of reputable and responsible character.
(2) If the abortion clinic is not in compliance
with the minimum standards for an abortion
clinic adopted under this article.
(3) For violation of any of the provisions of
[Ind. Code art. 16-21] or [410 Ind. Admin.
Code art. 26].

52a
(4) For permitting, aiding, or abetting the
commission of any illegal act in the clinic.
(5) For knowingly collecting or attempting to
collect from[] a subscriber . . . or an enrollee .
. . of a health maintenance organization . . .
any amounts that are owed by the health
maintenance organization.
(6) If conduct or practices of the clinic are
found to be detrimental to the patients of the
abortion clinic.
(7) If the application for a license to operate
an abortion clinic or supporting documentation provided inaccurate statements or information.
410 Ind. Admin. Code 26-2-5 (internal subdivisions
omitted). If the Department determines that the applicant qualifies for a license, it will issue to the applicant a provisional license, valid for ninety days,
and then a full license upon satisfactory initial inspection of the clinic “to ensure that the clinic is operating
in compliance with” article 26 of title 410. Id. § 26-24.
Section 8 of the rule states that the Department
may revoke a license in consequence of the licensee’s
(1) Violation of any provision of this article.
(2) Permitting, aiding, or abetting the commission of any illegal act in an abortion clinic.

53a
(3) Knowingly collecting or attempting to collect from[] a subscriber . . . or an enrollee . . .
of a health maintenance organization . . . any
amounts that are owed by the health maintenance organization.
(4) Conduct or practice found by the council to
be detrimental to the welfare of the patients
of an abortion clinic.
410 Ind. Admin. Code 26-2-8(b) (internal subdivisions
omitted).
The Department is required to inspect every abortion clinic in Indiana once annually and “may conduct
a complaint inspection as needed.” Ind. Code § 16-212-2.6. The Department refers to such inspections as
“surveys.” Governed by rule 3 of article 26 of the Department’s regulations, the Department will perform
regular “licensing surveys” “to ensure that the abortion clinic is operating in compliance” with article 26,
and “complaint surveys” upon “credible complaints received by [the Department] that allege noncompliance” with article 26. 410 Ind. Admin. Code 26-3-2,
26-3-3. Nothing in the cited statutes or rules makes
the Department’s authority or ability to conduct such
surveys contingent on the abortion clinic’s licensure,
the “licensing survey” appellation notwithstanding.
Most of the substantive regulations of the abortion
procedure are found in title 16, article 34 (“Abortion”)
of the Indiana Code. This includes the informed-consent requirement, Ind. Code §§ 16-34-2-1.1, 16-34-21.5, and the physician-reporting requirement. Id.

54a
§ 16-34-2-5. Outside the statutorily specified set of
circumstances, abortion is “in all instances . . . a criminal act[.]” Id. § 16-34-2-1. Specifically, performing an
abortion not in accordance with the provisions of
chapter 2 of article 34 is a Level 5 felony, id. § 16-342-7(a), and see id. § 35-50-2-6(b) (Level 5 felons liable
to one to six years’ imprisonment and $10,000 fine),
except that it is a Class A misdemeanor to fail to comply with the parental consent requirement (codified at
Ind. Code § 16-34-2-4), id. § 16-34-2-7(b), and a Class
A infraction to fail to comply with the informed-consent requirement. Id. § 16-34-2-7(c). See id. § 34-28-54 (Class A infractor liable to $10,000 judgment).
Again, no requirement imposed by these regulations
on abortion providers is made contingent on the provider’s licensure.
Finally, nothing in the Licensing Law displaces the
licensure requirements imposed by Indiana on physicians and other medical professionals, see Ind. Code
arts. 25-22.5 (physicians), 22-23 (nurses), or Indiana’s
common-law regulation of the same through negligence and other tort actions. See, e.g., Spar v. Cha, 907
N.E.2d 974, 980–81 (Ind. 2009) (lack of informed consent gives rise to action for professional negligence or
battery).
V. WWHA’s License Applications
WWHA was founded under the name “Whole
Woman’s Advocacy Alliance” by Amy Hagstrom Miller
in 2014. It owns and operates two abortion clinics: one
in Charlottesville, Virginia, and one in Austin, Texas.
WWHA is a 501(c)(3) nonprofit corporation organized

55a
under the laws of Texas. It is governed by a board of
directors, whose members are elected by majority vote
of the board to serve three-year terms, and of which
Hagstrom Miller has served as the chair since
WWHA’s inception. Today the board has nine members; it had three at the time of formation, all initially
appointed by Hagstrom Miller.
Hagstrom Miller is also WWHA’s president and
CEO. WWHA’s bylaws provide that the president and
CEO,
subject to the supervision of the Board of
Directors, shall have general management
and control of the business and property of
the Corporation in the ordinary course of
its business with all such powers with respect to such general management and
control as may be reasonably incident to
such responsibilities, including, but not
limited to, the power to employ, discharge,
or suspend employees and agents of the
Corporation, to fix the compensation of
employees and agents, and to suspend,
with or without cause, any officer of the
Corporation pending final action by the
Board of Directors with respect to continued suspension, removal, or reinstatement
of such officer. The President may, without
limitation, agree upon and execute all division and transfer orders, bonds, contracts, and other obligations in the name
of the Corporation.

56a
Pls.’ Ex. 10, at 55. A WWHA board member described
Hagstrom Miller’s duties as CEO as
[v]ery similar to [those of] . . . an executive
director; in charge of everything, making
sure that the whole entire organization
runs smoothly whether it be in finances or
in compliance or in medical care or in ordering supplies. It can be a large area of
responsibility or down to details, but just
making sure that it happens.
Defs.’ Ex. 2, at 161. The board members say they take
their oversight responsibilities of Hagstrom Miller seriously but have never overruled one of her decisions.
Before founding WWHA in 2014, Hagstrom Miller
had a substantial history of advocacy and activity related to abortion. In 2003 Hagstrom Miller began operating an abortion clinic in Austin, Texas, under the
name “Whole Woman’s Health.” In 2007 Hagstrom
Miller founded Whole Woman’s Health, LLC (WWH),
a for-profit limited liability company organized, like
WWHA, under the laws of Texas. WWH is a
“healthcare management company,” Defs.’ Ex. 1, at
16, which contracts with different abortion providers,
including WWHA, to provide “healthcare management services.” Id. at 16–17. These include services
related to bookkeeping, human resources, regulatory
compliance, public relations, and marketing. Pls.’ Ex.
8, at 5. Other for-profit limited liability companies operate abortion clinics in various American cities under
the name “Whole Woman’s Health.” For example,
Whole Woman’s Health of Baltimore, LLC, owns and

57a
operates an abortion clinic in Baltimore, Maryland.
These LLCs too contract with WWH for health care
management services. All the LLCs are held by an entity, which is either an LLC or a corporation, called
The Booyah Group (“Booyah”), named for a communally prepared stew. Booyah is in turn wholly owned
by Hagstrom Miller.
Confusingly, it appears that Hagstrom Miller has
used and continues to use “Whole Woman’s Health” as
an umbrella term or marketing slogan without referring to any specific entity or organization. She states
that, today, “Whole Woman’s Health” is “a consortium
of limited liability companies [and perhaps one corporation],” though it is unclear whether this “consortium” has any legal status and, if so, what that status
is. Pls.’ Ex. 3, at 3. For example, in this Court and in
the administrative proceedings on WWHA’s license
applications, Plaintiffs have adverted repeatedly to
the fact that “Whole Woman’s Health” was a plaintiff
in Whole Woman’s Health v. Hellerstedt, 136 S. Ct.
2292 (2016). The complaint in that matter identified
the plaintiff simply as “Whole Woman’s Health,” averring that “Whole Woman’s Health” operated abortion
clinics in Fort Worth, San Antonio, and McAllen,
Texas. Whole Woman’s Health v. Lakey, 1:14-cv00284-LY, Dkt. 1, ¶ 16. But unless “Whole Woman’s
Health” has undergone significant structural changes
since 2014 (for which there is no evidence), those clinics were in fact operated by the entities Whole
Woman’s Health of Fort Worth, LLC; Whole Woman’s
Health of San Antonio, LLC; and Whole Woman’s
Health of McAllen, LLC.

58a
Hagstrom Miller described her decision to found
WWHA as follows:
I had the idea to found a non-profit organization really directly [stemming] from my
experience in the field noticing that as we
had increased laws and increased . . . restrictions on women’s access to abortion
care services, it was harder and harder to
keep the doors open of the clinics, not only
the clinics I had managed through Whole
Woman’s Health but watching clinics in
Texas and Virginia and many other states
close as a byproduct of targeted regulation
of abortion providers. It became much more
difficult to keep a practice open . . . like a
regular medical practice from patient receipts only, and I saw that we needed to figure out a path for being able to invite donors and grantors and supporters to be able
to support us so that we could weather the
regulatory interference and still be able to
keep the doors open. . . . So [WWHA was
conceived as] a way to be sustainable in
states that had a lot of regulation, whereas
. . . in other places like Maryland and Minnesota where we don’t have a similar sort
of laws that interfere with the practice, the
practice is able to run much more like a normal doctor’s office.
Defs.’ Ex. 2, at 242. In addition to providing abortions,
WWHA’s mission is in part to combat the “lexicon of
shame and stigma that really surrounds abortion in

59a
this country[,]” which it aims to do by having “really
open and honest conversations about abortion” and
presenting a favorable picture of abortion provision in
communities where it is most stigmatized. Defs.’ Ex.
2, at 242.
In 2014, a group of local physicians, academics,
and activists invited Hagstrom Miller and WWHA to
consider operating a clinic in South Bend. WWHA determined that South Bend perfectly fit its bill for difficult legal and social environments in which to operate. “[A]ccess to abortion [there] is difficult, . . . and
also it is an unfriendly place for providers . . . . [W]e
wanted to go to places where it was unfriendly.” Defs.’
Ex. 2, at 164. After making the necessary preliminary
arrangements over the course of a year or more,
WWHA submitted to the Department an application
for a license to operate the South Bend Clinic on August 11, 2017.
On September 21, 2017, the Department, by Randy
Snyder, director of the Department’s acute care division, asked John Bucy, one of WWHA’s attorneys and
a member of its board, to submit a revised application
curing four minor deficiencies, including the failure to
name a proposed clinic administrator. Bucy submitted
a revised application on October 6, 2017.
Around this time, Trent Fox, the Department’s
chief of staff, began taking an active role in the Department’s review of WWHA’s application. Fox
averred that his intervention was spurred by the fact
that Indiana’s existing abortion providers were well
known to the Department but WWHA was not; it was

60a
“a new entity coming into the state . . . .” Defs.’ Ex. 2,
at 132. Moreover, the name of the proposed clinic administrator supplied by Bucy “raised some red flags .
. . .” Defs.’ Ex. 2, at 125. The clinic administrator was
Liam Morley, who was known to the Department for
having had a “connection,” either “as an employee or
administrator,” with Dr. Ulrich Klopfer, “who in recent years [in or about 2016] . . . surrendered his abortion clinic license and had his medical license suspended for serious violations[.]” Defs.’ Ex. 3, at 2.
Contemporaneously, the Department received a
letter from then state Senator Joseph C. Zakas, dated
October 18, 2017. It was addressed to the governor
and had been forwarded by him to Box, and by her to
Department staff. The letter noted WWHA’s attempts
to operate the South Bend Clinic, and warned,
I wanted you know the depth of concern
from many people about this organization’s application. I received over 200 messages from my constituents in one weekend after the news broke [of WWHA’s application via an article in the local newspaper]. . . . It appears that the company in
question, Whole Woman’s Health, has had
a history of health violations at other clinics. Further, the article indicates that
[Morley] used to work [for Klopfer]. Indiana has a long history of being a state that
stands for pro-life policies. Many believe
your administration will reflect that history. Thank you, Governor, for your consideration.

61a
Pls.’ Ex. 10, at 74. Over the following weeks, similar
letters arrived from state Senators Erin Houchin and
Ryan Mishler, disparaging the safety record of “Whole
Woman’s Health”; alleging that “[w]hile [WWHA]
would like [the Department] and the public to believe
they have women’s interests at heart, the record of
this Texas-based company shows otherwise[,]” Pls.’
Ex. 10, at 75; and by turns raising alarm at “this
threat to women’s health in Indiana,” Pls.’ Ex. 10, at
77, and invoking “the values of Hoosiers who respect
the right to life . . . .” Pls.’ Ex. 10, at 76. Plaintiffs vigorously maintain that each factual allegation made in
these letters was “completely and utterly false[,]” and
Defendants have not argued the contrary. Pls.’ Ex. 3,
at 8.
Fox began searching “Whole Woman’s Health” on
the Internet. He found www.wholewomanshealth.
com, the website for the “Whole Woman’s Health”
“consortium” of companies. The website supplied a list
of “Our Clinics,” featuring eight “Whole Woman’s
Health”-branded abortion clinics across the country;
the South Bend Clinic was listed as the ninth. (More
precisely, the website is owned and operated by WWH,
a fact the website discloses. Plaintiffs have suggested
that the website features “Whole Woman’s Health”
clinics as part of the marketing services WWH provides to the different “Whole Woman’s Health” LLCs
under their management services contracts. But Fox
was unaware of these distinctions as he performed his
searches and the website does not appear to make
them itself.) Fox also found a number of public state-

62a
ments by Hagstrom Miller, listed on the license application as WWHA’s president, referring similarly to
“Whole Woman’s Health” or “our” abortion clinics.
Spurred by the senators’ letters and his own research, Fox had the Department propound requests
for additional information to WWHA on October 27,
2017. Information was sought on eleven points, some
with subparts, with a 45-day time limit in which to
respond. The first request was as follows: “Provide a
complete ownership structure or description pertaining to the applicant, including, but not limited to, any
individuals and/or any parent, affiliate or subsidiary
organizations. Please list full legal names and addresses, and for entities, list the type of entity and the
state of incorporation/organization.” Pls.’ Ex. 10, at 34.
The second request was as follows: “Provide a list of
all the abortion and health care [sic] facilities currently operated by the applicant, including its parent,
affiliate or subsidiary organizations.” Id.
At the time, there was no applicable statutory definition of “affiliate.” But when the requests were
drafted, Fox had “some general idea” of what he meant
by “affiliate”: “We searched through the Indiana Code
and I looked myself as well and there were a few different [definitions] throughout [the] Indiana [C]ode,
but the theme I was finding in every definition was
there was a common control by one person or entity.”
Defs.’ Ex. 2, at 127. This general idea or theme was
not communicated to WHHA, however. At oral argument on Plaintiffs’ motion, Defendants suggested that
the Department’s failure to furnish guidance to
WWHA on this point was “part of [its] investigative

63a
technique,” Tr. 53:23–24, designed to test whether
WWHA would disclose the “affiliates” the Department
had already deemed it to have by virtue of the common
control exercised by Hagstrom Miller or “Whole
Woman’s Health.”
WWHA failed the test. On December 8, 2017,
WWHA by Bucy responded to the first request as follows:
[WWHA] is a Texas nonprofit corporation.
It does not have members. Management of
the affairs of WWHA is vested in the Board
of Directors. Since WWHA is a nonprofit
corporation it does not have any owners.
WWHA operates a clinic in Austin, Texas.
[The clinic’s address is given.] It is licensed
as an Abortion Facility by the Texas Department of State Health Services Regulatory Licensing Unit. [The clinic’s license
number is given.] WWHA has recently purchased a clinic in the State of Virginia. [The
clinic’s address and license number are
given.] WWHA has entered into a management agreement with [WWH] (the “Management Company”). The Management
Company will provide certain designated
management services to WWHA. The Management Company provides management
services to numerous clinics across the
United States. The Management Company
is a Texas limited liability company. Some
of the Board Members of WWHA are affili-

64a
ated directly or indirectly with the Management Company, but the majority of the
Board Members are independent.
Pls.’ Ex. 10, at 38. Bucy responded to the Department’s second request by referring the Department to
his answers to the first.
Fox considered WWHA’s response, identifying two
additional clinics and denying the existence of any affiliates, in light of the senators’ letters and in light of
the seemingly unitary public face of “Whole Woman’s
Health” with its eight clinics, the South Bend Clinic to
be the ninth. In Fox’s view,
the levels of confusion are now in the—the
information was still inconsistent with—
and the information we received from communications laying out the possible violations in these other clinics, we just didn’t
have an answer for. At this point it was imperative that we find out what clinics were
referred to whether or not they needed to
be disclosed and then understand why the
inconsistent information was being provided.
Defs.’ Ex. 2, at 129. Fox concluded,
At this point we simply didn’t have enough
information to justify granting the license.
When we determined the follow- up questions to ask and when two clinics were disclosed, we had conflicting information, and

65a
on—when we see eight clinics listed and
we are notified of two, it simply doesn’t
add up to me. Now, that was a question I
couldn’t answer and if I can’t answer that
question, then I just can’t justify granting
the license[.] . . . I mean at this point
[WWHA’s response] is not only inconsistent, we have determined it to be inaccurate. The second part of th[e] [response]
creates a—I think a few other questions on
our end when it refers to some of the board
members of [WWHA] as we had asked for
them to be identified, too, so when we look
at this, the affiliate definition, this is
where we determine that there are some
other clinics out there affiliated and under
the common control of Ms. Miller, and
those were not disclosed and I couldn’t—I
simply couldn’t answer that question either, so at this point we could not justify
granting.
Defs.’ Ex. 2, at 130. Fox understood himself and the
Department to be under no duty to investigate the
matter further or to ask WWHA specific questions
about Hagstrom Miller or other “Whole Woman’s
Health” clinics.
While Fox would later couch the Department’s decision in terms of lack of information, see also Pls.’ Ex.
10, at 84 (Department’s response to interrogatories in
administrative appeal) (“After attempting to extract
the information required to process the . . . applica-

66a
tion, [the Department] was unable to obtain the necessary information from [WWHA] to ascertain
whether [WWHA] is of reputable and responsible
character.”), the Department took a more definite
stance in its communications with WWHA. On January 3, 2018, the Department informed WWHA by letter that its license application had been denied. The
letter charged that WWHA had “failed to disclose, concealed, or otherwise omitted information related to additional clinics.” Pls.’ Ex. 10, at 72. Accordingly, the
Department found, “WWHA fail[ed] to meet the requirement that the Applicant is of reputable and responsible character and the supporting documentation provided inaccurate statements or information.”
Pls.’ Ex. 10, at 72. See Ind. Code § 16-21-2-11(a)(1)–
(2); 410 Ind. Admin. Code 26-2-5(1), (7).
WWHA lodged an administrative appeal with the
Department on January 22, 2018. The petition for review, drafted by Bucy, insisted that WWHA’s December 8, 2017, responses to the Department’s October 27,
2017, requests, had not concealed anything from or in
any way misled the Department. Because WWHA was
a nonprofit, Bucy argued, it had no owners and therefore no parent organization. It had no subsidiaries because it held no ownership interest in any other entity. While WWHA had disclosed its management services contract with WWH as well as its Texas and Virginia clinics, it had not disclosed the other “Whole
Woman’s Health” clinics managed by WWH under
similar contracts because they were not operated or
owned by WWHA. “To the contrary,” Bucy main-

67a
tained, “those other clinics are independent [companies] that are not controlled by [WWHA][.]” Pls.’ Ex.
10, at 80.
Bucy speculated that “it is possible that the Department considers [WWH] to be an affiliate of”
WWHA. Pls.’ Ex. 10, at 80. Bucy cited definitions of
“affiliate” given in certain provisions of the Indiana
Code for business corporations and nonprofit corporations, noting that both rested on the notion of control,
see Ind. Code §§ 23-1-43-1, 23-17-21-2, in the latter
case explicitly including “the power to select the corporation’s board of directors.” Id. § 23-17-21-2(c). Relying on these definitions (the Department would later
point to this reliance as demonstrating that WWHA
had understood all along what the Department meant
by “affiliate”), Bucy argued that in no event was
WWHA an affiliate of WWH because WWHA was controlled by its board and its board was not controlled by
anyone else; and because WWHA, through its board,
had no control over WWH. So, too, for the other
“Whole Woman’s Health” clinics which had management services agreements with WWH.
WWHA’s administrative appeal was heard by an
administrative law judge (ALJ) over two days, August
22 and 23, 2018. Substantial evidence, live and documentary, was presented by both sides relating to the
progress of WWHA’s license application and the Department’s review of it; Hagstrom Miller and her relationship to WWHA, WWH, and the other “Whole
Woman’s Health” entities; and the relationship of
those entities to one another—all towards a determination of whether WWHA had “affiliates” because

68a
both it and other “Whole Woman’s Health” LLCs
shared a common controller in Hagstrom Miller, and
thus whether WWHA had truthfully represented that
it had none. The Department pointed the unitary public face of “Whole Woman’s Health”; Hagstrom Miller’s
undisputed “control” over the “Whole Woman’s
Health” LLCs of which she (through Booyah) is the
sole member; and Hagstrom Miller’s allegedly dominant position with respect to WWHA’s board. WWHA
pointed to the board’s decisional independence, especially as embodied in WWHA’s conflict-of-interest policy, under which Hagstrom Miller recuses herself from
decisions involving WWH; and to the willingness of
Hagstrom Miller and “Whole Woman’s Health” to expose themselves to public scrutiny as exemplified by
the Hellerstedt litigation.
In a recommended order of September 14, 2018,
the ALJ framed the question before her as, “Was
[WWHA’s] revised Application For License To Operate An Abortion Clinic of October 6, 2017 regarding a
clinic in South Bend incomplete and/or inaccurate?”
Pls.’ Ex. 10, at 108. The ALJ concluded it was not. Specifically, the ALJ found that there was
no evidence provided during the proceedings that the responses provided by
WWHA to [the Department’s] October 27,
2017 eleven (11) questions were inaccurate, incomplete, or misleading. WWHA
demonstrated by a preponderance of the
evidence that their responses provided to
[the Department’s] request for additional

69a
information on October 27, 2017 was complete and accurate. [The Department] provided no evidence that they specifically inquired of WWHA regarding concerns that
were raised based upon submissions to
[the Department] by Indiana Senators in
October and November 2017, or that were
raised by [Department] staff’s own ‘informal investigation.’ Therefore [the Department] has failed to show by a preponderance of the evidence that WWHA lacks a
reputable and responsible character and
should be denied a license for the South
Bend clinic.
Pls.’ Ex. 10, at 108–09. The ALJ recommended that
the Department’s denial be reversed and that a license
to operate the South Bend Clinic be granted to WWHA
“based [on] the information contained in the Revised
Application of October 6, 2017, the December [8], 2017
information to [the Department] from WWHA, and
the evidence from the proceedings.” Pls.’ Ex. 10, at
109.
The Department’s lawyers were apparently bewildered by the ALJ’s recommended order. Clearly, they
thought, they had put on at least some evidence that
Hagstrom Miller was a common controller of both
WWHA and the other “Whole Woman’s Health” entities; that WWHA therefore had “affiliates”; and that
therefore WWHA’s December 8, 2017, responses had
been inaccurate. Further, though both sides had
maintained that WWHA’s veracity or lack of it turned
on the definition of “affiliate” and on the subsidiary

70a
definition of “control,” the Department’s lawyers were
surprised to find a discussion of that issue nowhere in
the ALJ’s recommended order.
Given that the ALJ did not answer the question
whether WWHA had “affiliates” as a matter of state
law, it appears her ruling addressed whether WWHA
had knowingly provided inaccurate information to the
Department. That is particularly evident in the ALJ’s
ruling on the “reputable and responsible character” requirement that, because WWHA had no specific notice
of what information the Department was seeking, the
Department had not shown WWHA lacked a reputable and responsible character. The implied major
premise is that knowingly misleading the Department
constitutes lack of reputable and responsible character. If that was the ALJ’s approach, it appears to us to
be an eminently sensible one, as the strictly interpretive question in which the parties mired themselves of
whether other “Whole Woman’s Health” clinics satisfied an unannounced definition of “affiliate” grew ever
more remote from the question of whether the Department ought to have granted WWHA a license to operate the South Bend Clinic.
The Department objected to the ALJ’s proposed order and brought the matter before the Department’s
three-member Appeals Panel, its final decisionmaker.
The Appeals Panel conducted a hearing on November
28, 2018, during which the parties rehearsed the same
arguments as those before the ALJ as to whether Hagstrom Miller “controls” WWHA. By written order issued on December 18, 2018, by a two-to-one vote the

71a
Appeals Panel agreed with the Department that Hagstrom Miller does “control” WWHA. The Appeals
Panel conceded that “[c]ontrol is not defined in Indiana’s abortion laws[,]” Defs.’ Ex. 2, at 114, but drew a
definition from Combs v. Daniels, 853 N.E.2d 156 (Ind.
Ct. App. 2006).
Combs considered whether a statute giving the Department “complete administrative control and responsibility” for a “state center for the short-term diagnostic and evaluative training of school-aged children with multiple developmental disabilities” included authority to close the center. Id. at 158, 161.
The court concluded that it did, holding that “[t]he
plain meaning of ‘control’ is ‘the power or authority to
manage, superintend, restrict, regulate, direct, govern, administer, or oversee,’ as well as the power to
restrain, check, or regulate.” Id. (quoting Williams v.
State, 253 N.E.2d 242, 246 (Ind. 1969) (upholding conviction for theft because “unauthorized control” did
not require proof of unauthorized possession)).
In that light, the Appeals Panel concluded that
Hagstrom Miller “controls Whole Woman’s Health Alliance under Indiana law because she has ‘the power
or authority to manage, superintend, restrict, regulate, direct, govern, administer, or oversee, as well as
the power to restrain, check, or regulate’ the activities
and operations of the business.” Defs.’ Ex. 2, at 114.
The Appeals Panel appears to have rested its conclusion on the authority given to Hagstrom Miller as
president of WWHA under its bylaws and WWHA
board members’ testimony as to Hagstrom Miller’s
management duties as chief executive. See Defs.’ Ex.

72a
2, at 109–10. Accordingly, the Appeals Panel continued, given Hagstrom Miller’s basically undisputed
“control” of the other “Whole Woman’s Health” LLCs,
those LLCs and WWHA share a common controller
and are therefore “affiliates.” Specifically, the Appeals
Panel held,
Whole Woman’s Health, LLC; Whole
Woman’s Health of McAllen, LLC; Whole
Woman’s Health of Fort Worth, LLC;
Whole Woman’s Health of Baltimore, LLC;
Whole Woman’s Health of the Twin Cities,
LLC; Whole Woman’s Health of San Antonio, LLC; and Whole Woman’s Health of
Peoria, LLC are affiliates of Whole
Woman’s Health Alliance because those
entities are under the common control of
Amy Hagstrom Miller.
Defs.’ Ex. 2, at 114. Because WWHA had failed to disclose these affiliates in response to the Department’s
request, it was deemed to have provided inaccurate
statements or information and its license application
was therefore properly denied under 410 Ind. Admin.
Code 26-2-5(7). The Appeals Panel expressed no opinion as to whether WWHA had shown itself to have a
reputable and responsible character.
Rather than seek judicial review of the Department’s decision, at the instigation of the Department
WWHA reapplied for a license on January 19, 2019.
By letter dated February 25, 2019, the Department requested among other things the following disclosures

73a
“for each affiliate of WWHA identified” in the Appeals
Panel’s order by March 15, 2019:
[A]ll reports, complaints, forms, correspondence, and other documents that concern, mention, or relate to any investigation, inspection, or survey of the affiliate
by any state or other regulatory authorities at any time since and including January 1, 2014[;] . . . all forms, correspondence, reports, and other documents that
concern, mention, or relate to any application(s) by the affiliate for licensure of or
other permission to operate an abortion
clinic at any time since and including January 1, 2014[;] . . . all orders, submissions,
correspondence and other documents that
concern, mention, or relate to any regulatory or administrative enforcement action,
or administrative, civil or criminal court
action involving the affiliate at any time
since and including January 1, 2014[;] . . .
the legal name and current address of each
person who, at any time since and including January 1, 2014, has been an organizer, manager, director, owner, and/or officer of the affiliate.
Pls.’ Ex. 3, at 19 (internal subdivisions omitted).
On March 15, 2019, the day its responses were due,
WWHA otherwise complied with the Department’s
February 25, 2019, letter but responded in part as follows to the above quoted production demands:

74a
The December 2018 Order upholds the denial of WWHA’s previous application. That
Order does not govern WWHA’s current application. In any event, the Department is
not entitled to the extensive information it
now demands. . . . The Department’s demands concerning Whole Woman’s Health
clinics are not only irrelevant to determining whether WWHA satisfies the requirements for licensure, but exceptionally
broad and burdensome. For example,
providing “all orders, submissions, correspondence, and other documents that concern, mention, or relate” to every case that
Whole Woman’s Health has filed challenging restrictive abortion laws . . . would require the production not only of privileged
communications, but hundreds of thousands of pages. Further, Whole Woman’s
Health clinics operate in five different
states; they are regulated by multiple state
and federal agencies. Identifying every document that “concerns, mentions, or relates
to” inspections or surveys of those entities
over a five year-period . . . would take weeks
of document review. Similarly, all “copies of
all forms, correspondence, reports, and
other documents that concern, mention, or
relate to any application(s) by the affiliate
for licensure of or other permission to operate an abortion clinic at any time since and
including January 1, 2014” would take dozens of hours to identify, much less produce.

75a
Pls.’ Ex. 3, at 22–23. WWHA noted further that it had
already made the disclosures required by the new affiliate-disclosure requirement of Indiana Code § 1621-2-11(d).
Unsurprisingly, the Department was not persuaded by WWHA’s opinion on the scope and relevance of its production demands. The administrative
proceedings stalemated with WWHA’s March 15,
2019, letter.
VI. WWHA’s Lawsuit and the Instant Motion
While review of the Department’s denial of
WWHA’s first license application was pending before
the ALJ, WWHA joined the other Plaintiffs here in filing this lawsuit on June 1, 2018. The suit raises
sweeping challenges to Indiana’s entire regime for the
regulation of abortion. As relevant here, the complaint
seeks “facial invalidation” of the Licensing Law as violative of due process and equal protection guarantees. Br. Supp. 1. See Compl. ¶¶ 197, 199. But Plaintiffs’ instant motion for a preliminary injunction, filed
on March 27, 2019, seeks “much narrower,” “as-applied” relief from the Licensing Law so that WWHA
“may provide medication abortions at the South Bend
Clinic pending entry of final judgment.” Br. Supp. 1.
Plaintiffs’ motion as filed includes a request for a
temporary restraining order or, in the alternative, for
expedited proceedings on the preliminary injunction
request. We denied the request for a temporary restraining order and set a hearing on the preliminary

76a
injunction. Dkt. 82. The hearing was conducted on
April 22, 2019. Dkt. 106.
Standard of Decision
“[P]laintiff[s] seeking a preliminary injunction
must establish that [they are] likely to succeed on the
merits, that [they are] likely to suffer irreparable
harm in the absence of preliminary relief, that the balance of equities tips in [their] favor, and that an injunction is in the public interest.” D.U. v. Rhoades,
825 F.3d 331, 335 (7th Cir. 2016) (quoting Winter v.
Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008)).
At the threshold, plaintiffs seeking a preliminary
injunction must show a better than negligible likelihood of success on the merits and irreparable harm.
Girl Scouts of Manitou Council, Inc. v. Girls Scouts of
U.S.A., Inc., 549 F.3d 1079, 1086 (7th Cir. 2008) (citations omitted); Baskin v. Bogan, 983 F. Supp. 2d 1021,
1024 (S.D. Ind. 2014) (citations omitted).
If this showing is made, the court, “attempt[ing] to
minimize the cost of potential error,” must then balance the private and public equities on a sliding scale
to determine whether the injunction should issue. Id.
That is, “‘the more likely it is the plaintiff[s] will succeed on the merits, the less the balance of irreparable
harms need weigh towards [their] side; the less likely
it is the plaintiff[s] will succeed, the more the balance
need weigh towards [their] side.’” Planned Parenthood
of Wis., Inc. v. Van Hollen, 738 F.3d 786, 795 (7th Cir.
2013) (quoting Kraft Foods Group Brands LLC v.
Cracker Barrel Old Country Store, Inc., 735 F.3d 735,

77a
740 (7th Cir. 2013)). The plaintiffs’ burden is proof by
a preponderance of the evidence. Baskin, 983 F. Supp.
2d at 1024.
Analysis
Most constitutional injury is presumed irreparable, Ezell v. City of Chicago, 651 F.3d 684, 699 (7th
Cir. 2011); Baskin v. Bogan, 983 F. Supp. 2d 1021,
1028 (S.D. Ind. 2014), with here-irrelevant exceptions
for constitutional torts sufficiently analogous to common-law personal-injury claims. See Campbell v. Miller, 373 F.3d 834, 835 (7th Cir. 2004). And for patients
“who lose the opportunity to exercise their constitutional right to an abortion, the irreparability of the
harm is clear.” Planned Parenthood of Ind. & Ky., Inc.
v. Comm’r of Ind. State Dep’t of Health, 896 F.3d 809,
816 (7th Cir. 2018).
We proceed, therefore, to (I) Plaintiffs’ likelihood of
success before turning to (II) the remaining injunction
factors.
I. Likelihood of Success on the Merits
Plaintiffs maintain that (A) the “reputable and responsible character” requirement as applied to
WWHA’s license applications is vague in violation of
the Due Process Clause of the Fourteenth Amendment
and (B) the Department’s application of the Licensing
Law to WWHA license applications unduly burdens
access to previability abortions in violation of the Due
Process Clause. Plaintiffs maintain as well that the

78a
Licensing Law’s classifications offend the Equal Protection Clause of the Fourteenth Amendment. For reasons explained below, we address these claims together, finding a negligible chance of success on the
first claim but better than negligible chances on the
second and third.
Two points of departure merit clarification. First,
in deciding whether an injunction should issue, we
ask whether the movant will suffer irreparable injury
unless the injunction issues. D.U. v. Rhoades, 825
F.3d 331, 335 (7th Cir. 2016). Here, unless the injunction issues, the Licensing Law will continue to apply
to WWHA and the South Bend Clinic. It will do so in
the context of how matters stood on March 15, 2019,
the Department’s deadline for responding to its February 25, 2019, production demand. That is true no
matter whether continued application of the Licensing
Law would involve excusing WWHA’s lateness in failing to meet the deadline and resumption of the proceedings on WWHA’s second application; a third application by WWHA, which would doubtlessly be subject to identical demands from the Department; or the
Department’s denial of the second application and refusal to entertain a third. Accordingly, we examine
Plaintiffs’ claims challenge in light of how matters
stood on March 15, 2019.
Second, we draw no distinction between the Department’s discretionary conduct, its regulations, and
the state statutes. “If the action of [an executive or administrative body] is official action it is subject to constitutional infirmity to the same but no greater extent
than if the action were taken by the state legislature.”

79a
Snowden v. Hughes, 321 U.S. 1, 11 (1944). “In other
words, if it is constitutional for the state legislature to
write a statute that would permit the action taken by
an administrative agency, then the agency’s action is
necessarily constitutional.” Thielman v. Leean, 140 F.
Supp. 2d 982, 997 (W.D. Wis. 2001) (Crabb, J.) (citing
Snowden, 321 U.S. at 11).
A. Plaintiffs Have a Negligible Chance of Success
on Their As-Applied Vagueness Challenge to the
“Reputable and Responsible Character” Requirement
The Fourteenth Amendment provides that no state
may “deprive any person of life, liberty, or property,
without due process of law[.]” U.S. Const. amend. XIV,
§ 1, cl. 3. “It is a fundamental tenet of due process that
‘no one may be required at peril of life, liberty or property to speculate as to the meaning of . . . statutes.’”
United States v. Batchelder, 442 U.S. 114, 123 (1979)
(alteration omitted) (quoting Lanzetta v. New Jersey,
306 U.S. 451, 453 (1939)). Thus, the state violates the
guarantee of due process “by taking away someone’s
life, liberty, or property under a . . . law so vague that
it fails to give ordinary people fair notice of the conduct it punishes, or so standardless that it invites arbitrary enforcement.” Johnson v. United States, 135 S.
Ct. 2551, 2556 (2015) (citing Kolender v. Lawson, 461
U.S. 352, 357–58 (1983)).
Three constitutional policies are served by the proscription against vague enactments:

80a
First, because we assume that [a person]
is free to steer between lawful and unlawful conduct, we insist that laws give the
person of ordinary intelligence a reasonable opportunity to know what is prohibited, so that he may act accordingly. . . .
Second, . . . [a] vague law impermissibly
delegates basic policy matters to policemen, judges, and juries for resolution on
an ad hoc and subjective basis, with the attendant dangers of arbitrary and discriminatory application. Third, but related,
where a vague statute “abuts upon sensitive areas of basic First Amendment freedoms,” it “operates to inhibit the exercise
of those freedoms.” Uncertain meanings
inevitably lead citizens to “steer far wider
of the unlawful zone” . . . than if the boundaries of the forbidden areas were clearly
marked.”
Grayned v. City of Rockford, 408 U.S. 104, 108–09
(1972) (citations and alterations omitted). The applicability of the third policy is not limited to the First
Amendment, however. Colautti v. Franklin, 439 U.S.
379, 391 (1979) (right to abortion) (“threatens to inhibit the exercise of constitutionally protected
rights”); Karlin v. Foust, 188 F.3d 446, 458 (7th Cir.
1999) (right to abortion) (“threatens to inhibit the exercise of constitutionally protected rights, such as the
present case”); Planned Parenthood of Wis. v. Doyle,
162 F.3d 463, 469 (7th Cir. 1998) (right to abortion)
(“so vaguely that it makes doctors afraid to perform
constitutionally permissible abortions”).

81a
The vagueness analysis proceeds in light of the
foregoing policies.
Thus, economic regulation is subject to a
less strict vagueness test because its subject matter is often more narrow, and because businesses, which face economic demands to plan behavior carefully, can be
expected to consult relevant legislation in
advance of action. Indeed, the regulated
enterprise may have the ability to clarify
the meaning of the regulation by its own
inquiry, or by resort to an administrative
process. The Court has also expressed
greater tolerance of enactments with civil
rather than criminal penalties because the
consequences of imprecision are qualitatively less severe. And the Court has recognized that a scienter requirement may
mitigate a law’s vagueness, especially with
respect to the adequacy of notice to the
complainant that his conduct is proscribed. Finally, perhaps the most important factor affecting the clarity that the
Constitution demands of a law is whether
it threatens to inhibit the exercise of constitutionally protected rights.

82a
Village of Hoffman Estates v. Flipside, Hoffman Estates, Inc., 455 U.S. 489, 498–99 (1982).2
Defendants raise a preliminary question regarding
the applicability of these cases here. They point out
that these cases address vagueness in relation to primary regulations of conduct, not in relation to license
qualifications. This point is well taken, though of uncertain significance.
The Supreme Court has entertained vagueness
challenges to non-conduct- regulating rules (of which
Hoffman Estates is not an example, for it addressed
vagueness in the definition of the conduct requiring a
license, not of the license qualifications, 455 U.S. at
492), but we have not found any case in which such a
challenge has been successful, and Plaintiffs have not
cited one. See Nat’l Endowment for the Arts v. Finley,
524 U.S. 569, 588–89 (1998) (rejecting vagueness challenge to NEA grant qualifications) (“[I]t seems unlikely that speakers will be compelled to steer too far
clear of any ‘forbidden area’ in the context of grants of
this nature. . . .[T]he consequences of imprecision are
not constitutionally severe.”); City of Mesquite v. Aladdin’s Castle, Inc., 455 U.S. 283, 289 (1982) (rejecting
vagueness challenge to purported license “requirement” for operating an amusement center because no

On the importance of the possibility for informal or administrative clarification, see further Trustees of Indiana University
v. Curry, 918 F.3d 537, 541–42 (7th Cir. 2019) (citing Civil Serv.
Comm’n v. Letter Carriers, 413 U.S. 548 (1973); Bauer v. Shepard, 620 F.3d 704 (7th Cir. 2010)).
2

83a
requirement at all) (“It is a basic principle of due process that an enactment is void for vagueness if its prohibitions are not clearly defined.”); Law Students Civil
Rights Research Council, Inc. v. Wadmond, 401 U.S.
154 (1971) (rejecting challenge to New York’s character-and-fitness bar- admission requirement).
The Seventh Circuit has read Aladdin’s Castle to
suggest that the vagueness doctrine applies “in attenuated form” to licensing provisions and has assumed
without deciding that there are at least some limits on
the permissible degree of vagueness of such provisions—even in “refusal to license” cases (of which
Aladdin’s Castle was one), as distinct from licenserevocation cases, where the prohibitory and quasi-penal effects are stronger. Baer v. City of Wauwatosa,
716 F.2d 1117, 1124 (7th Cir. 1983). E.g., Hegwood v.
City of Eau Claire, 676 F.3d 600 (7th Cir. 2012) (rejecting vagueness challenges to statute authorizing
liquor-license revocation for keeping or maintaining
“disorderly or riotous, indecent or improper house”).
Whatever those limits may be, they were not transgressed here. Concededly, the precise factual predicates of Plaintiffs’ as-applied challenge to the “reputable and responsible character” requirement are difficult to discern because the Department’s application
of the requirement had little force. Cf. McCullen v.
Coakley, 573 U.S. 464, 485 n.4 (2014); Little Arm Inc.
v. Adams, 13 F. Supp. 3d 893, 909 (S.D. Ind. 2014)
(Young., J.). The December 18, 2018, order of the Department’s Appeals Panel embodied the Department’s
final action on WWHA’s first license application, see

84a
Ind. Code § 4-24.5-1-6, but that order upheld the Department’s denial on the basis of the “accurate statements and information” requirement only and never
addressed the “reputable and responsible character”
requirement. Except for one somewhat Delphic pronouncement, neither did the ALJ’s September 14,
2018, recommended order.
However, to the extent that the Department’s initial denial letter of January 3, 2018, rested in part on
the “reputable and responsible character” requirement, and to the extent that the requirement continued to bear on the subsequent administrative proceedings, it is clear what the Department considered to be
indicative of WWHA’s lack of reputable and responsible character: the knowing misleading of the licensor
from which WWHA was seeking a license. Though this
theory was, so far as we can tell from the record, never
stated in strong terms, its adoption by the Department may be inferred from various indicia.
The Department was perhaps first primed to find
knowing dishonesty on WWHA’s part by Senator
Houchin’s letter, which alleged that, “[w]hile [WWHA]
would like [the Department] and the public to believe
they have women’s interests at heart, the record of
this Texas-based company shows otherwise.” Pls.’ Ex.
10, at 75.
Hagstrom Miller, who was present as a witness
and party representative for the entire proceeding before the ALJ, avers that, “[t]hroughout the hearing,
the Department insinuated that WWHA sought to

85a
hide its relationship with WWH because of concerns
about WWH’s reputation.” Pls.’ Ex. 3, ¶ 46.
In response to WWHA’s inquiry as to the criteria
being used to determine whether an applicant had a
reputable and responsible character, the Department
responded, “[A] person or entity of ‘reputable or responsible character’ would be truthful and forthcoming with the information requested in the [October 27,
2017,] Request for Additional Information.” Pls.’ Ex.
10, at 85.
Matthew Foster, who currently oversees the Department’s regulation of abortion clinics, avers that
the Department believed WWHA’s December 8, 2017,
responses to the Department’s October 27, 2017, requests to be “at best incomplete and perhaps deliberately misleading.” Defs.’ Ex. 2, ¶ 32.
As remarked on under “Background,” Part V, supra, the ALJ’s recommended order appears to be
based on the assumption that the Department’s only
theory as to lack of reputable and responsible character was that WWHA knowingly misled it.
Finally, at oral argument on Plaintiffs’ motion, Defendants explained the Department’s failure to give
guidance in its October 27, 2017, requests as to the
meaning of “affiliate” was “part of [its] investigative
technique.” Tr. 53:23–24. In other words, the Department was less explicit than it could have been because
it wanted to know whether WWHA would disclose the
“affiliates” the Department already “knew” it to have.

86a
The Department was waiting for WWHA to deliberately mislead it, as a police officer follows car waiting
for it to commit a moving violation.
A person of ordinary intelligence would understand that, if a licensor requires her to have a “reputable and responsible character” to be awarded a license, that requirement encompasses not knowingly
misleading the licensor during the license-application
process. To that extent, the “reputable and responsible character” requirement establishes “an imprecise
but comprehensible normative standard,” Coates v.
City of Cincinnati, 402 U.S. 611, 614 (1971), which is
directly related and relevant to the licensor’s task. See
Wadmond, 401 U.S. at 159 (character-and-fitness baradmission requirement applied only to “dishonorable
conduct relevant to the legal profession” and “instances of misconduct clearly inconsistent with the
standards of a lawyer’s calling”). Dishonesty at the application stage seriously, sometimes fatally, weakens
any regulatory goal the licensing scheme is designed
to serve given its false predicates. In other words, no
license is worth very much if the applicant lied to get
it. Conversely, liars are poor candidates for licensure.
Plaintiffs correctly point out that the Department
has promulgated no standards (at least none that appear in the record) for determining what constitutes a
reputable and responsible character. Plaintiffs seize
on this lack of more definite standards to argue that
the requirement can be and in this case has been arbitrarily and discriminatorily applied on the basis of
nothing more than an animus toward abortion and
abortion providers. Plaintiffs emphasize as well the

87a
fundamental constitutional right at stake in licensure
of abortion providers, as opposed to, say, licensure of
operators of amusement centers.
As for the lack of more definite standards fleshing
out the “reputable and responsible character requirement,” breadth or the necessity for subjective judgments do not equal vagueness where these are appropriate and even necessary to accomplish permissible
regulatory goals. See Wadmond, 401 U.S. at 159; Konigsberg v. State Bar, 366 U.S. 36, 40–41 (1961) (“good
moral character” bar-admission requirement “is not,
nor could well be, drawn in question”); Schware v. Bd.
of Bar Exam’rs, 353 U.S. 232, 239 (1957) (“good moral
character” bar-admission requirement “must have a
rational connection with the applicant’s fitness or capacity to practice law”); id. at 249 (Frankfurter, J.,
concurring) (“It cannot be that that conception—moral
character—has now been found to be so indefinite, because necessarily implicating what are called subjective factors, that the States may no longer exact it
from those who are to carry on ‘the public profession
of the law.’”).
Defendants point to no fewer than twenty-nine
statutes from jurisdictions across the country which
employ “reputable and responsible character” as a licensing criterion for health-care and related facilities.3 We view this as good evidence for the proposition

3 3 Defendants cite the following provisions: “Ind. Code § 1225-1-4 (mental health facilities); Ind. Code § 16-28-2-2 (health
facilities generally); Ind. Code § 16-21-2-11 (hospitals); Ala. Code

88a
that state health regulators find it appropriate and
even necessary to a take a broad view of an applicant’s
fitness for having the health and safety of patients
and clients entrusted to it. See Wadmond, 401 U.S. at
160 (noting fifty states, District of Columbia, Puerto
Rico, Virgin Islands, and Court itself all required good
character for bar admission).
In any event, the susceptibility of the “reputable
and responsible character” requirement to arbitrary
and discriminatory enforcement is of little help to
Plaintiffs unless the requirement actually has been

§ 22-21-23 (hospitals, nursing homes, and other health facilities); Cal. Health & Safety Code § 1596.95 (daycare centers); Cal.
Health & Safety Code § 1569.15 (nursing homes); Cal. Health &
Safety Code § 1265.3 (health facilities generally); Cal. Health &
Safety Code § 1796.19 (home care aides); Cal. Health & Safety
Code § 1575.2 (adult daycare homes); Cal. Health & Safety Code
§ 1416.22 (nursing homes); Cal. Health & Safety Code § 1597.54
(family daycare homes); Cal. Health & Safety Code § 1212 (medical clinics); Ga. Code Ann. § 43-27-6 (nursing homes); Haw. Rev.
Stat. Ann. § 346-154 (childcare facilities); Md. Code Ann.,
Health-Gen. § 19-319 (hospitals); Md. Code Ann., Health-Gen. §
19-906 (hospice care facilities); Minn. Stat. Ann. § 144.51 (hospitals and other health facilities); Nev. Rev. Stat. Ann. § 449.4311
(intermediary service organizations); Nev. Rev. Stat. Ann. §
449.040 (medical facilities generally); N.D. Cent. Code Ann. § 2317-02 (chiropractic hospitals); Okla. Stat. Ann. tit. 63, § 1-703
(hospitals); Okla. Stat. Ann. tit. 10, § 1430.14 (homes for the disabled); Okla. Stat. Ann. tit. 63, § 330.53 (long- term care facilities); Okla. Stat. Ann. tit. 63, § 1-1904 (nursing homes); S.C.
Code Ann. § 40-35-40 (health care administrators); Tenn. Code
Ann. § 33-2-406 (mental health and substance abuse facilities);
Tenn. Code Ann. § 71-2-404 (adult day care); Tenn. Code Ann. §
68-11-206 (traumatic brain injury residential homes); W. Va.
Code Ann. § 16-5B-2 (hospitals, ambulatory surgical centers, and
extended care facilities).” Defs.’ Br. Opp. 17 n.2.

89a
applied in this manner. In the relevant sense, it has
not been. Every rule is susceptible of arbitrary enforcement in the sense that charges may be laid without sufficient evidence to support them. That does not
make every rule vague. Rather, it falls to those who
review the enforcement decision to ferret out the lack
of evidentiary support, as measured against a nonvague rule application.
Assuming for the sake of argument that there was
arbitrariness here, it was of this type. Plaintiffs proceed from a mistaken premise in arguing that the Department abused the “reputable and responsible character” requirement by “conclud[ing] that WWHA’s
good-faith understanding of its ownership structure
amounted to a character flaw.” Br. Supp. 23. It was
precisely not the Department’s conclusion, or strong
surmise, that WWHA had done no more than communicate its “good-faith understanding of its ownership structure.” And the lack of evidentiary support
for a finding of knowing dishonesty, arbitrary or not,
was ferreted out when first the ALJ and then the Appeals Panel declined to sustain the Department’s license denial on “reputable and responsible character”
grounds.
See Schware, in which the Court accepted that advocating the violent overthrow of the federal government would support a finding of “bad moral character”
in the bar- admission context, but found that state bar
examiners had impermissibly used an applicant’s former membership in the Communist Party as a proxy
for such advocacy, of which per se there was no evidence. 353 U.S. at 243–47. There was no suggestion,

90a
however, that the fault lay in the vagueness of the
“good moral character” standard. See id. at 239; id. at
249 (Frankfurter, J., concurring).
Finally, as for the fundamental constitutional
right at stake in this case, Plaintiffs have not made (or
attempted) any showing that uncertainty around the
“reputable and responsible character” requirement
has caused any prospective abortion provider, still
less WWHA, to “steer far wider” of the zone of “no reputable or responsible character” than they otherwise
would have absent the requirement. Grayned, 408
U.S. at 109. It is difficult even to conceive of how such
a showing could be made.
Defendants suggest that the Department’s March
15, 2019, production demand relates to the its need to
determine whether WWHA has a reputable and responsible character. Br. Opp. 4–5, 36. It thus appears
certain that, if WWHA continues to pursue a license,
absent an injunction the “reputable and responsible
character” requirement will again be applied to it.
However, we cannot know whether that application
will be to WWHA’s detriment nor, if so, what facts it
will purport to rest on. We cannot grant as- applied
relief by conceiving of some “‘set of hypothetical facts
under which the statute might be unconstitutional.’”
Little Arm, 13 F. Supp. 3d at 909 (quoting Hegwood,
676 F.3d at 603). Until it “is soon to occur and the way
in which it works can be determined[,]” id. (quoting
Brandt v. Village of Winnetka, 612 F.3d 647, 650 (7th
Cir. 2010)), we will not assume a future application
will be arbitrary or discriminatory where the only application to date “show[s] . . . willingness to keep . . .

91a
investigation[] within constitutionally permissible
limits.” Wadmond, 401 U.S. at 167.
Plaintiffs have a negligible chance of success on
their vagueness challenge to the “reputable and responsible character” requirement as applied to
WWHA’s license applications.
B. Plaintiffs Have in Part a Better Than Negligible
Chance of Success on Their Undue-Burden and
Equal Protection Challenges to the Department’s Application of the Licensing Law
We note at the outset that, with respect to Plaintiffs’ as-applied undue-burden challenge, Plaintiffs’
motion for a preliminary injunction is not strictly preliminary to anything. The complaint pleads only that
“[t]he challenged laws,” including the Licensing Law,
are unconstitutional—that is, on their face, not as applied to WWHA by the Department. Compl. ¶ 197. Understandably: the complaint was filed on June 21,
2018, six months before the December 18, 2018, order
of the Appeals Panel finally denied WWHA’s license
application for the South Bend Clinic. Thus, none of
the facts related to the administrative proceeding relied upon by Plaintiffs in support of their as-applied
undue-burden challenge are pleaded in the complaint.
None would be heard at the time of final judgment on
Plaintiffs’ facial challenges. See Ezell v. City of Chicago, 651 F.3d 684, 697 (7th Cir. 2011) (“In a facial
constitutional challenge, individual application facts
do not matter.”). But neither Plaintiffs nor, more importantly, Defendants have raised this point.

92a
The question presented by Plaintiffs’ as-applied
undue-burden claim—as well as its facial equal protection claim, as explained below—is whether the Department in purpose or effect has placed a substantial
obstacle in the path of women in northern Indiana
seeking previability abortions by prohibiting WWHA
from providing medical abortions at the South Bend
Clinic, first by denying WWHA’s first license application, then by refusing to grant WWHA’s second application until it complies with the Department’s February 25, 2019, production demand and the materials
produced establish WWHA’s “reputable and responsible character.” Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292, 2300 (2016); Planned Parenthood of
Se. Pa. v. Casey, 505 U.S. 833, 878 (1992) (joint op. of
O’Connor, Kennedy, Souter, JJ.4 [hereinafter joint
op.]); Roe v. Wade, 410 U.S. 113, 152–53 (1973).
Among the liberties protected by the Due Process
Clause is freedom from state- required motherhood.
Roe, 410 U.S. at 152–53. In part that liberty is protected from state deprivation without due process of
law by guaranteeing a pregnant woman’s choice to terminate her pregnancy before fetal viability without
undue state interference. Casey, 505 U.S. at 846 (maj.
op.). Without exception, “a State may not prohibit any
woman from making the ultimate decision to terminate her pregnancy before viability.” Id. at 879 (joint
op.). Accord id. at 846 (maj. op.). Further, a provision
of law imposes “an ‘undue burden’ on a woman’s right
The joint opinion constitutes the holding of the Casey Court
in relevant part under Marks v. United States, 430 U.S. 188,
193–94 (1977).
4

93a
to decide to have an abortion, and consequently . . . is
constitutionally invalid, if the ‘purpose or effect’ of the
provision ‘is to place a substantial obstacle in the path
of a woman seeking an abortion before the fetus attains viability.’” Hellerstedt, 136 S. Ct. at 2300 (emphasis omitted) (quoting Casey, 505 U.S. at 878 (joint
op.)).
The Fourteenth Amendment also provides that no
state may “deny to any person within its jurisdiction
the equal protection of the laws.” U.S. Const. amend.
XIV, § 1, cl. 4. This is “essentially a direction that all
persons similarly situated should be treated alike.”
City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432,
439 (1985). “When social or economic legislation is at
issue, the Equal Protection Clause allows the States
wide latitude” to draw appropriate lines: their “legislation is presumed to be valid and will be sustained if
the classification drawn by the statute is rationally related to a legitimate state interest.” Id. But a heightened standard of judicial review applies to state laws
predicated on certain “suspect” classifications such as
race, as well as to those which “impinge on personal
rights protected by the Constitution[,]” id., such as the
right to obtain a previability abortion. Mass. Bd. of
Ret. v. Murgia, 427 U.S. 307, 312 n.3 (1976).
Plaintiffs and Defendants disagree over the appropriate standard of review for Plaintiffs’ equal protection claims: Plaintiffs say intermediate scrutiny, Br.
Supp. 35; Defendants say rational-basis review. Br.
Opp. 34. We think the standard under the Equal Protection Clause is the same as that under the Due Pro-

94a
cess Clause, that is, the undue- burden standard. Defendants agree at least that the Equal Protection
Clause cannot be more protective of the abortion right
than is the Due Process Clause. Br. Opp. 33–34.
In Harris v. McRae, 448 U.S. 297 (1980), the Court
overruled a raft of constitutional objections to a provision of federal law generally prohibiting reimbursement of abortion costs by Medicaid known as the Hyde
Amendment. The Court held first that the Hyde
Amendment did not violate the substantive abortion
right. Id. At 318. The Court then subjected the plaintiffs’ equal protection claim to rational-basis review
because the Hyde Amendment was not predicated on
a suspect classification and because the Court “ha[d]
already concluded that the Hyde Amendment violates
no constitutionally protected substantive rights.” Id.
at 322.
As the Court explained, “The guarantee of equal
protection . . . is not a source of substantive rights or
liberties, but rather a right to be free from invidious
discrimination in statutory classifications and other
governmental activity.” Id. Thus no heightened review applies where the law “does not itself impinge on
a right or liberty protected by the Constitution,” or, in
other words, where the law “violates no constitutionally protected substantive rights.” Id.
Whether the Licensing Law impinges on the abortion right is defined by the Due Process Clause. And
because the Equal Protection Clause is not itself “a
source of substantive rights,” id., Plaintiffs cannot ex-

95a
pand the substantive scope of the abortion right by resort to the Equal Protection Clause. See San Antonio
Indep. Sch. Dist. v. Rodriguez, 411 U.S. 1, 33 (1973)
(“It is not the province of this Court to create substantive constitutional rights in the name of guaranteeing
equal protection of the laws.”).
Plaintiffs cite Obergefell v. Hodges, 133 S. Ct. 2584
(2015), which emphasizes that “the two Clauses may
converge in the identification and definition of [a]
right.” Id. at 2603. If Obergefell is inconsistent with
Harris or Rodriguez, the inconsistency is not material
here. See Plyler v. Doe, 457 U.S. 202, 232 (1982)
(Blackmun, J., concurring) (“Classifications infringing
substantive constitutional rights necessarily will be
invalid, if not by force of the Equal Protection Clause,
then through operation of other provisions of the Constitution.”); Rodriguez, 411 U.S. at 61 (Stewart, J.,
concurring) (“[Q]uite apart from the Equal Protection
Clause, a state law that impinges upon a substantive
right or liberty created or conferred by the Constitution is, of course, presumptively invalid, whether or
not the law’s purpose or effect is to create any classifications.”).
Accordingly, under the Equal Protection Clause,
we review whether the Licensing Law’s classifications
impinge on the exercise of the fundamental abortion
right, Plyler, 457 U.S. at 216–17, as defined by the
Due Process Clause. Casey, 505 U.S. at 846 (maj. op.).
Defendants bear the burden of showing constitutionality under either clause. See Ezell, 651 F.3d at 706
(citing District of Columbia v. Heller, 554 U.S. 570,

96a
628 n.27 (2008); United States v. Carolene Prods. Co.,
304 U.S. 144, 154 n.4 (1938)).
“The rule announced in Casey . . . requires that
courts consider the burdens a law imposes on abortion
access together with the benefits those laws confer.”
Hellerstedt, 136 S. Ct. at 2309. The benefits of a law
are measured against the state’s legitimate interests
in this field and in comparison to those derived from
prior law. Id. at 2311. First, “[a]s with any medical
procedure, the State may enact regulations to further
the health and safety of a woman seeking an abortion.” Casey, 505 U.S. at 878 (joint op.). But “‘unnecessary health regulations that have the purpose or effect
of presenting a substantial obstacle to a woman seeking an abortion impose an undue burden on the right’”
to seek a previability abortion. Hellerstedt, 136 S. Ct.
at 2300 (alteration omitted) (quoting Casey, 505 U.S.
at 878 (joint op.)).
Second, the state has a legitimate interest in preserving life that may one day become a human being.
Casey, 505 U.S. at 878 (joint op.). To promote that interest, the state may enact measures to ensure the
woman’s choice is philosophically and socially informed and to communicate its preference (if it has
one) that the woman carry her pregnancy to term. Id.
at 872 (joint op.). But such measures “must be calculated to inform the woman’s free choice, not hinder
it[,]” and even if so calculated may not present a substantial obstacle to its exercise. Id. at 877 (joint op.).
Third, the state may choose to further the same interest by enacting measures “‘protecting the integrity

97a
and ethics of the medical profession’ . . . in order to
promote respect for life,” Gonzales v. Carhart, 550
U.S. 124, 158 (quoting Washington v. Glucksberg, 521
U.S. 702, 731 (1997)), but such measures equally may
not impose undue burdens. Id.
The burdens of a law are measured by their impacts on women for whom they are a relevant restriction on the choice to seek a previability abortion.
Hellerstedt, 136 S. Ct. at 2313; Casey, 505 U.S. at 895.
“The proper focus of constitutional inquiry is the
group for whom the law is a restriction, not the group
for whom the law is irrelevant.” Casey, 505 U.S. at
895. If the impacts amount to a substantial obstacle to
the abortion decision for a “large fraction” of that
group, the burdens imposed are undue. Hellerstedt,
136 S. Ct. at 2313; Casey, 505 U.S. at 895. If a law
imposes several incremental burdens, their impacts
are assessed together. Planned Parenthood of Ind. &
Ky., Inc. v. Comm’r of Ind. State Dep’t of Health, 896
F.3d 809, 827 (7th Cir. 2018) (citing Hellerstedt, 136
S. Ct. at 2313), petition for cert. filed (Feb. 4, 2019).
Against the backdrop of these principles, the court
then turns to
its ultimate task of determining whether
the burdens of the law’s requirements
were “disproportionate, in their effect on
the right to an abortion” compared “to the
benefits that the restrictions are believed
to confer.” To determine whether a burden
is undue, the court must “weigh the bur-

98a
dens against the state’s justification, asking whether and to what extent the challenged regulation actually advances the
state’s interests. If a burden significantly
exceeds what is necessary to advance the
state’s interests, it is ‘undue,’” and thus
unconstitutional.
Id. (quoting Planned Parenthood of Wis., Inc. v.
Schimel, 806 F.3d 908, 919 (7th Cir. 2015)).
Hellerstedt ratified Schimel’s conclusion that Casey balancing is not conducted under a simple preponderance standard. See id. Rather, when striking down
provisions of law as imposing undue burdens on the
previability abortion right, the Supreme Court and
the Seventh Circuit have found the state’s asserted legitimate interests to be nil or their marginal advancement de minimis, and the burdens on the abortion
right to be substantial. Hellerstedt, 136 S. Ct. at 2311–
13 (striking down admitting-privileges requirement
because resulting in closure of half of state’s abortion
clinics with “virtual absence of any health benefit”);
id. at 2318 (striking down surgical-center requirement because “provid[ing] few, if any, health benefits
for women” and “pos[ing] a substantial obstacle to
women seeking abortions”); Casey, 505 U.S. at 887–
898 (striking down spousal- notification requirement
because no legitimate state interest in enforcing view
of marriage “repugnant to our present understanding”
and safety of women and their children endangered);
Planned Parenthood of Ind. & Ky., 896 F.3d at 831
(striking down ultrasound requirement because “impos[ing] significant burdens against a near absence of

99a
evidence that the law promotes either of the benefits
asserted by the State”); Schimel, 806 F.3d at 916
(striking down admitting-privileges requirement because “substantially curtail[ing]” statewide availability of abortion “without . . . any [legitimate] benefit”).
We begin our analysis with an examination of the
benefits derived from the Department’s application of
the Licensing Law. There are three sets of distinct
though interrelated benefits presented, which must be
examined in light of their interrelation. First, there
are the benefits to the state derived from the Department’s enforcing its production demand of February
25, 2019. Defendants suggest those benefits run to the
Department’s capacity to determine whether WWHA
has a reputable and responsible character. Br. Opp.
4–5, 36. Thus, second, there are the benefits to the
state derived from the Department’s determination of
WWHA’s reputable and responsible character as a
condition of licensure. Third and finally, therefore,
there are the benefits to the state in enforcing the licensure requirement against WWHA in particular.
We further divide the last-mentioned into those
benefits derived from the licensure requirement as a
whole, for the purposes of the due process claim, and,
for the purposes of the equal protection claim, into
those derived from the Licensing Law’s challenged
classifications.
The first of these challenged classifications is the
Licensing Law’s distinction between a health care provider who provides an abortion-inducing drug “for the
purposes of inducing an abortion” and one who does so

100a
for another purpose. Ind. Code § 16-18-2-1.5(a)(2). The
former requires a license; the latter does not. Id. § 1621-2-10. Necessarily implied by this distinction is another between women seeking an abortion-inducing
drug for the purposes of inducing an abortion, who are
restricted to licensed providers, and women seeking
an abortion-inducing drug for the purposes of treating
miscarriages (the only nonabortion purpose of abortion-inducing drugs appearing in the record), who are
unrestricted in their choice of provider. Br. Supp. 36.
Thus, we ask what benefits accrue to the state by classifying abortion patients differently from miscarriage
patients in this respect.
The second and third challenged classifications are
in reality none at all, and again (without objection
from Defendants) play fast and loose with the scope of
the facial challenges pleaded in the complaint. See
Compl. ¶ 199. Plaintiffs maintain that the Licensing
Law’s five-patient floor “treats the South Bend Clinic’s
first four medication abortion patients each year differently than its subsequent patients.” Br. Supp. 36.
It does not. WWHA intends to and, if permitted to, will
almost certainly provide more than four medical abortions annually at the South Bend Clinic. The Licensing Law requires it to have a license to do so. Its first
patient and its hundred-and-first patient are treated
precisely equally in this respect: neither may obtain
an abortion at the South Bend Clinic unless it is licensed. It defies credulity and common sense to suggest that WWHA will ask the South Bend Clinic’s
every fifth annual patient to please wait while it seeks
a license or license renewal from the Department before treating her.

101a
The Licensing Law does treat classes of medicalabortion providers differently in this respect, but by
seeking application of heightened scrutiny we understand Plaintiffs’ to be raising their patients’ equal protection rights, not their own. See Birth Control Ctrs.,
Inc. v. Reizen, 743 F.2d 352, 358 (6th Cir. 1984) (applying rational-basis standard to abortion providers’
equal protection claim) (“[W]e are not aware of any authority that allows plaintiffs to use their patients’ due
process rights as a means of elevating the standard of
review for their own equal protection rights.”);
Planned Parenthood of Ind. & Ky., Inc. v. Comm’r,
Ind. State Dep’t of Health, 984 F. Supp. 2d 912, 921–
22 (S.D. Ind. 2013) (Magnus-Stinson, C.J.) (applying
rational-basis standard to abortion providers’ equal
protection claim).
Plaintiffs maintain further that the Department’s
application of the Licensing Law has “subject[ed]
WWHA to greater scrutiny than other abortion clinic
applicants.” Br. Supp. 35. This alleges not a classbased equal protection claim in the conventional sense
but a “class of one” claim, in which a plaintiff alleges
it has been arbitrarily singled out for oppressive treatment. Engquist v. Or. Dep’t of Ag., 553 U.S. 591, 601
(2008) (“even if the plaintiff has not alleged classbased discrimination,” class-of-one doctrine may apply); Village of Willowbrook v. Olech, 528 U.S. 562
(2000) (per curiam). Yet Plaintiffs insist they do not
allege a class-of-one claim; consequently, they fail to
argue under the correct standard (“‘something other
than the normal rational-basis test . . . ,’ [though] that
something has not been clearly delineated[,]” Brunson

102a
v. Murray, 843 F.3d 698, 708 (7th Cir. 2016) (quoting
Del Marcelle v. Brown Cty. Corp., 680 F.3d 887, 900
(7th Cir. 2012) (Easterbrook, J., concurring in the
judgment))); and consequently, they fail to show a
likelihood of success on the merits.
We examine the three sets of benefits in the order
outlined above. First, the benefits to the state, specifically to the Department’s enforcement of the Licensing Law and the “reputable and responsible character” requirement, derived from the Department’s enforcing its production demand of February 25, 2019,
are not negligible, as Plaintiffs maintain.
There is no longer any room for confusion on the
meaning of “affiliate.” That question has been settled,
whether by the preclusive effect of the Appeals Panel’s
determination of WWHA’s “affiliates,” as the Department apparently correctly believes, see Dev. Servs.
Alts., Inc. v. Ind. Family & Soc. Servs. Admin., 915
N.E.2d 169, 180, 180 n.11 (Ind. Ct. App. 2009), or by
the newly minted statutory definition of “affiliate” for
abortion-clinic licensure. Ind. Code § 16-18-2-9.4.
WWHA’s “affiliates” are abortion clinics under the
control of Hagstrom Miller. Plaintiffs tilt at windmills
in steadfastly maintaining the contrary. In any event
the correctness of that state-law determination “can
neither add to nor subtract from” the constitutionality
of the Department’s conduct, Snowden v. Hughes, 321
U.S. 1, 11 (1944), which we must, and here do, evaluate only under the applicable constitutional standard.
It is apparent that Hagstrom Miller is significantly
involved in the governance and operation of WWHA,

103a
the board’s formal decisional independence notwithstanding; that Hagstrom Miller is solely responsible
for the other “Whole Woman’s Health” clinics; and
that in all areas other than this litigation (including
the Hellerstedt litigation) the “Whole Woman’s
Health” “consortium” draws no such technical organizational distinctions as Plaintiffs now insist are controlling here. It cannot be said that how those clinics
operate is not instructive as to how WWHA will operate the South Bend Clinic, nor to WWHA’s “reputable
and responsible character.” Information relating to
other “Whole Woman’s Health” clinics as demanded
by the Department on February 25, 2019, is clearly
germane to the Department’s task and advances the
Licensing Law’s purposes.
To the benefits derived from such advancement we
turn next. The “reputable and responsible character”
requirement has obvious utility as an ex ante credentialing mechanism. Plaintiffs have not argued (nor
could they) that, in the abstract, the state gains nothing by licensing only those health care providers
shown to have reputable and responsible characters
in respects relevant to the provision of health care and
to the soundness of the licensing procedure itself. (As
discussed in relation to vagueness, Part I, Section A,
supra, there is no evidence that the Department has
yet applied the “reputable and responsible character”
requirement in respects irrelevant to these concerns.)
On the facts of this case, however, the benefits derived from further application of the “reputable and
responsible character” requirement appear slight. Defendants have come to know a great deal about

104a
WWHA and “Whole Woman’s Health” since August
11, 2017, but nonetheless point to two areas they believe justify further inquiry. Defendants point to testimony given by Plaintiff Dr. Jeffrey Glazer in discovery on Plaintiffs’ motion as suggesting that his treatment practices merit particular scrutiny, in furtherance of the state’s interest in preserving the integrity
of the medical profession. Plaintiffs stridently resist
Defendants’ characterization of Plaintiff Glazer’s testimony. We agree with Plaintiffs that the evidence
overall suggests that Plaintiff Glazer is a competent,
responsible provider of ob/gyn care generally and
abortion care specifically.
But the point as framed by Defendants is in any
event of dubious relevance to Defendants’ case. It is
undisputed that Plaintiff Glazer has provided medical
abortions in Indiana subject to this state’s (and others’) physician and clinic licensure rules without a
whisper of concern on the Department’s part. As Indiana today has only six licensed clinics, it is not credible, and Defendants do not suggest, that Plaintiff
Glazer’s practice has only until now escaped the Department’s notice. If Defendants have only in the
course of this litigation unearthed causes for concern
with Plaintiff Glazer’s practice, that says little or
nothing about the benefits derived from the Licensing
Law as written.
Defendants contend next that “specific identified
evidence” shows that other Whole Woman’s Health
clinics have failed to operate safely.” Br. Opp. 28. That
contention is not well supported. Defendants cite re-

105a
ports of inspections conducted by the Texas Department of State Health Services of three “Whole
Woman’s Health” clinics in Texas. Those reports assessed each clinic inspected with several deficiencies.
According to Plaintiffs’ unrebutted expert testimony,
however, such deficiencies are “common” in the inspection of any health care facility (“Indeed, it is extremely rare for an inspector not to find a deficiency
during an inspection.”) and “are not indicative of a
threat to patient health and safety.” Pls.’ Reply Ex. 1,
¶ 10. Deficiencies are cured through development and
implementation of a plan of correction as a normal
part of health-care-facility regulation. Id. See 410 Ind.
Admin. Code 26-3-4(a) (“The abortion clinic must file
an acceptable plan of correction with [the Department] within ten . . . days of receipt of a survey report
. . . that documents noncompliance with state rules.”).
Unsurprisingly, actual ongoing threats to patient
safety are not tolerated while a plan of correction is
developed and implemented. Rather, “[i]f a health inspection determined that patient health was being endangered, it would typically lead to a suspension or
termination of a facility’s license or accreditation
standards.” Pls.’ Reply Ex. 1, ¶ 12. And it is uncontested that no “Whole Woman’s Health” clinic has had
its license or accreditation revoked, save for one erroneous revocation in 2006 followed by corrective restoration within eight days at the “Whole Woman’s
Health” clinic in Beaumont, Texas. Pls.’ Ex. 3, ¶ 4. In
any event, the relevance of other “Whole Woman’s
Health” clinics’ standards of operation as a general
matter notwithstanding, none of the particular cited

106a
deficiencies (such as keeping bleach and other cleaning chemicals in “the laundry area (closed off only by
a curtain),” Defs.’ Ex. 2, at 37) furnish a substantial
basis for doubting WWHA’s reputable and responsible
character.
Thus we turn to the benefits derived from applying
the Licensing Law at all. We begin with those benefits
as a general matter, as relates to Plaintiffs’ due process claim. Foster avers that licensure “enables [the
Department] to enforce important safety and health
regulations.” Defs.’ Ex. 2, ¶ 7. (We note that, for the
purposes of the instant motion, Plaintiffs have not
challenged any of these regulations. We therefore assume them to be permissible.) Specifically, “[l]icensure enables [the Department] to do regular surveys
of abortion clinics, and to perform complaint investigations according to standardized protocols and criteria. Without licensure, [the Department] would be unable to perform such standardized surveys and investigations[.]” Id. ¶ 8. Further, “[l]icensure also enables
[the Department] to collect and update important information about abortion providers . . . . Without licensure . . . , it would be difficult and perhaps impossible for [the Department] to know where clinics are
operating, who is running them, or what they are doing. Without licensure, abortion clinics would have little or no meaningful regulatory oversight[.]” Id. ¶ 9.
Defendants have not adequately explained how
Foster is correct in this. See generally “Background,”
Part III, supra. Article 34 of title 16 of the Indiana
Code deals exclusively with abortion and was codified

107a
in 1993. But licensure was not required of any abortion clinic from 1993 until 2005. Mifepristone having
first been approved by FDA in 2000, licensure of clinics providing only medical abortions was not required
until 2013 and the requirement could not for practical
purposes be enforced until 2015. We are hard pressed
to believe that article 34 simply lay dormant for
twelve years (1993–2005, with respect to surgicalabortion providers) or thirteen years (2000–2013, with
respect to medical-abortion providers). And it strains
credulity to believe that for those periods abortion
clinics in Indiana operated with “little or no meaningful regulatory oversight.”
For example, Defendants argue that licensure ensures that abortion providers “follow the State’s informed-consent and reporting requirements.” Br. Opp.
20. But those requirements have been on the books
since 1995 and 1973, respectively. Publicly available
Department records of pregnancies terminated in Indiana stretch back until at least 1996. See Ind. State
Dep’t of Health, Indiana Induced Termination of Pregnancy Report (2000), tbl. 15, available at
https://www.in.gov/isdh/reports/itp/2000/tbl15.html.
As such records are generated from the fruits of the
reporting requirement, see Ind. State Dep’t of Health,
Terminated Pregnancy Reports, https://www.in.gov/
isdh/26843.htm, it appears that compliance with the
reporting requirement has been reliably obtained for
some time without resort to licensure.
Defendants place great reliance on the Department’s authority to inspect (or conduct “surveys” of)

108a
abortion clinics, but have not shown how that authority is contingent on the clinics’ licensure. The statute
says simply, “[The Department] shall inspect an abortion clinic at least one (1) time per calendar year and
may conduct a complaint inspection as needed.” Ind.
Code § 16-21-2-2.6. All that is required is for the Department to know where the clinic is located, a goal
which licensure does achieve, but which could equally
well be achieved by a registration requirement. Cf.
Defs.’ Ex. 2, ¶ 9 (“Without licensure . . . , it would be
difficult and perhaps impossible for [the Department]
to know where clinics are operating, who is running
them, or what they are doing.”). We discuss this further below in balancing the benefits and burdens.
The most useful feature of a license appears to be
the threat of its revocation as a means for preventing
noncompliant abortion providers from persisting in
their noncompliance. However, we cannot perceive
what marginal benefit this ex post enforcement mechanism has over the similarly ex post enforcement
mechanisms of prosecution for failing to comply with
article 34, see Ind. Code § 16-34-2-7; physician- license
suspension or revocation; or a civil action for medical
negligence or other torts. Defendants point to the
Klopfer case, but Klopfer was prevented from continuing his noncompliant abortion practice, not through
revocation of the licenses of the clinics at which he
practiced, but through suspension of his physician’s license and criminal prosecution. Br. Opp. 24.
For purposes of Plaintiffs’ due process claim, Defendants have shown little more than de minimis marginal advancement, relative to pre-2013 law, of the

109a
state’s legitimate interests in maternal health and fetal life derived from requiring licensure as a condition
of providing medical abortions.
For purposes of Plaintiffs’ equal protection claim,
Defendants’ case is weaker yet. Here the state must
justify its disparate treatment of, on one hand, women
seeking an abortion-inducing drug for the purposes of
inducing an abortion, and, on the other, women seeking an abortion-inducing drug for the purposes of
treating a miscarriage. As the medical and physiological impacts are identical or practically identical in
both cases, the state’s interest in patient health falls
away. The classification can be sustained only on the
strength of the state’s interest in fetal life, which operates in the abortion context but not in the miscarriage context. But that interest is advanced by licensure only to the extent enforcement of the informedconsent requirement is advanced, and, as we have already explained, the connection between the two is exceedingly tenuous.
Finally, Defendants gesture in the direction of,
without quite asserting, the state’s interest administering its own licensing and regulatory regimes on its
own terms, an interest which would undoubtedly be
advanced by permitting continued application of the
Licensing Law to WWHA by the Department without
federal-court interference. See, e.g., Br. Opp. 28 (“[The
questions as to WWHA’s reputable and responsible
character] are not questions that should be resolved
with this preliminary injunction motion. These disputes should be left to the state administrative proceeding—and, if necessary, state judicial review.”).

110a
But we do not find such an interest admissible under
Casey or Hellerstedt, and Defendants cite no case holding that it is.
Hellerstedt emphasized strongly that “the ‘Court
retains an independent constitutional duty to review
factual findings where constitutional rights are at
stake.’” 136 S. Ct. at 2310 (emphasis omitted) (quoting
Gonzales, 550 U.S. at 165). Where state agencies and
state courts must be allowed a chance to resolve disputes touching on constitutional rights before a federal “‘safety valve’” may be resorted to, the Supreme
Court has so held, as it has in the context of regulating
the secondary effects of sexually indecent speech. HHIndianapolis LLC v. Consol. City of Indianapolis/Marion Cty., 265 F. Supp. 3d 873, 886 (S.D. Ind.
2017) (Barker, J.) (quoting City of Littleton v. Z.J.
Gifts D-4, L.L.C., 541 U.S. 774, 782 (2004)), aff’d, 889
F.3d 432 (7th Cir. 2018).
Having considered the benefits to the state in applying the Licensing Law to WWHA and refusing to
allow the South Bend Clinic to operate, we consider
now the burdens on the abortion right imposed by the
same. We have set forth this material fully under
“Background,” Part II, supra. This material suggests
that the women for whom the burdens are relevant
are women seeking abortions in and around South
Bend, and more broadly in north-central and northeastern Indiana, of limited financial and social resources. But as Plaintiffs’ evidence bears more heavily
on the South Bend area’s population of college- and
university students, so too does our analysis.

111a
Plaintiffs’ evidence suggests further that, in a
large fraction of such cases, the unavailability of abortion in South Bend imposes a substantial obstacle to
its access. It establishes that there is a demand for
abortion care in and around South Bend which is currently unmet. In the absence of the South Bend Clinic,
the demand is unmet because of a confluence of factors: the long-distance travel burden, compounded by
the eighteen- hour informed-consent waiting-period
requirement; high monetary costs undefrayed by state
aid to those whose poverty would otherwise entitle
them to it or by university-sponsored coverage in the
case of students; the necessity of securing the help and
support of others in the exercise of a right to which the
social environment is reportedly hostile (applying
with special force to students, who are likely to be
young and unmarried); the high opportunity costs incurred by operation of all the foregoing, including lost
wages, missed educational opportunities, and missed
rent and utility payments; and the prospect of undergoing the abortion in an unfamiliar, unsupportive setting, undermining one of the chief virtues of the mifepristone-misoprostol regimen.
To the extent that the impact of these burdens, assessed together, do not preclude obtaining an abortion, each delay imposed by them increases the costs
to the patient and the risks to her health
Defendants point to Plaintiffs’ Jane Doe declarant
and her capacity to obtain an abortion in Illinois. But,
as Doe makes clear, even that step was possible for
her owing only to her enjoyment of a number of personal and social advantages which many women do

112a
not enjoy. And in any event, it is a “‘profoundly mistaken assumption’” that “‘the harm to a constitutional
right can be measured by the extent to which it can be
exercised in another jurisdiction.’” Schimel, 806 F.3d
at 918 (quoting Ezell, 651 F.3d at 697).
We turn finally to the “ultimate task of determining whether the burdens of the law’s requirements
were ‘disproportionate, in their effect on the right to
an abortion’ compared ‘to the benefits that the restrictions are believed to confer.’” Planned Parenthood
of Ind. & Ky., Inc., 896 F.3d at 827 (quoting Schimel,
806 F.3d at 919).
On the facts of this case, the marginal benefits to
the state in requiring WWHA to obtain a license before operating the South Bend Clinic are slight or
none. Defendants have not shown why the state’s interests, to the extent they are advanced by a licensing
requirement at all, may not be equally well advanced
by a registration requirement. A licensing requirement is thus “not necessary” to achieve the state’s
proffered ends. Hellerstedt, 136 S. Ct. at 2315. Moreover, to the extent the Licensing Law advances state
interests, continued application of the “reputable and
responsible character” requirement does little to advance the Licensing Law.
These de minimis benefits are dwarfed by the burdens of women’s access to abortion in and around
South Bend.
Simply put, there is unmet demand for abortions
in and around South Bend which is, at this point,

113a
state-created, without any appreciable benefit to maternal health or fetal life. See id. at 2316–18 (same).
We conclude that Plaintiffs have a better than negligible chance of showing that the burdens on abortion
access imposed by the Licensing Law “‘significantly
exceed[] what is necessary’” to advance the state’s interests. Planned Parenthood of Ind. & Ky., Inc., 896
F.3d at 827 (quoting Schimel, 806 F.3d at 919).
II. Remaining Injunction Factors
Having found irreparable injury and likelihood of
success on the merits, we turn now to balancing the
injunction factors.
The predominant factor in this case is Plaintiffs’
likelihood of success on the merits. Planned
Parenthood of Ind. & Ky., Inc. v. Comm’r of Ind. State
Dep’t of Health, 896 F.3d 809, 816 (7th Cir. 2018);
Korte v. Sebelius, 735 F.3d 654, 666 (7th Cir. 2013).
We find Plaintiffs have shown a fair likelihood of success. While the specific claim (imposition of licensure
requirement as undue burden and equal protection violation) appears novel, application of settled principles, so far as these exist in the abortion context,
points reliably to Plaintiffs’ ultimate success.
The irreparable harm to women who lose the opportunity to exercise their constitutional right to an
abortion is significant and obvious: a period of statecompelled gestation followed by a lifetime of statecompelled motherhood. By contrast, little irreparable
harm appears likely to afflict the state if Plaintiffs’

114a
motion is granted. Enjoining enforcement of the Licensing Law as to WWHA will do no more than return
the state, vis-à-vis WWHA, to the status quo that
reigned from 1993 to 2013 or, as a practical matter,
2015. We do not accept that the state inflicted irreparable harm on itself for those two decades.
The public interest to be equitably balanced in Defendants’ favor is usually coextensive with any governmental interest appearing in the merits analysis.
See Michigan v. U.S. Army Corps of Eng’rs, 667 F.3d
765, 789 (7th Cir. 2011); United States v. Rural Elec.
Convenience Coop., 922 F.2d 429, 440 (7th Cir. 1991).
We have found this to be slight. Otherwise, injunctions enforcing the Constitution are in the public interest. See Joelner v. Village of Washington Park, 378
F.3d 613, 620 (7th Cir. 2004).
Accordingly, the balance of equities, adjusted for
Plaintiffs’ fair likelihood of success on the merits, favors Plaintiffs.
Conclusion and Order
In ruling on Plaintiffs’ motion for a preliminary injunction seeking relief from the Department’s decision
to withhold a license for WWHA’s South Bend Clinic,
we hold that the “reputable and responsible character” requirement set out in the Licensing Law applicable to abortion clinics is not unconstitutionally
vague in violation of the Due Process Clause of the
Fourteenth Amendment.

115a
However, we also hold that the Department’s application of the Licensing Law to WWHA’s license application for the South Bend Clinic places a substantial obstacle in the path of northern Indiana women
seeking previability abortions without promoting
women’s health (indeed, tending to increase the risks
to women’s health) and without promoting informed
decisionmaking or any other admissible state interest.
The Licensing Law’s disparate treatment of miscarriage patients versus abortion patients also presents a substantial obstacle to the abortion decision
without any offsetting state benefits.
Thus, we have determined for the reasons explicated here that the Department’s application of the
Licensing Law violates the Due Process Clause and
the Equal Protection Clause.
Finally, we hold that the state stands to lose little
if an injunction is issued, but women in northern Indiana stand to lose a great deal if it is not.
Accordingly, Plaintiffs’ motion for a preliminary
injunction, Dkt. 76, is GRANTED.
Defendants are ENJOINED from enforcing the
provisions of Indiana Code § 16- 21-2-2(4) (requiring
Department to license); Indiana Code § 16-21-2-2.5(b)
(penalty for unlicensed operation); and Indiana Code
§ 16-21-2-10 (necessity of license) against WWHA
with respect to the South Bend Clinic.
IT IS SO ORDERED.

116a
Date:

5/31/2019

Distribution:
Amanda Lauren Allen
LAWYERING PROJECT
aallen@lawyeringproject.org
Christopher Michael Anderson
INDIANA ATTORNEY GENERAL
christopher.anderson@atg.in.gov
David Patrick Brown
LAWYERING PROJECT
dbrown@lawyeringproject.org
Paul M. Eckles
ATTORNEY AT LAW
paul.eckles@probonolaw.com
Thomas M. Fisher
INDIANA ATTORNEY GENERAL
tom.fisher@atg.in.gov
Bradley H. Honigman
ATTORNEY AT LAW
bradley.honigman@probonolaw.com

117a
Kathrine D. Jack
LAW OFFICE OF KATHRINE JACK
kjack@jacklawoffice.com
Mollie M. Kornreich
mollie.kornreich@probonolaw.com
Diana Lynn Moers Davis
INDIANA ATTORNEY GENERAL
diana.moers@atg.in.gov
Julia Catherine Payne
INDIANA OFFICE OF THE ATTORNEY
GENERAL
Julia.Payne@atg.in.gov
Michael M. Powell
ATTORNEY AT LAW
michael.powell@probonolaw.com
Juanluis Rodriguez
LAWYERING PROJECT
prodriguez@lawyeringproject.org
Rupali Sharma
LAWYERING PROJECT
rsharma@lawyeringproject.org
Erin A. Simmons
ATTORNEY AT LAW
erin.simmons@probonolaw.com

118a
Dipti Singh
LAWYERING PROJECT
dsingh@lawyeringproject.org
Stephanie Toti
LAWYERING PROJECT
stoti@lawyeringproject.org

119a
Indiana Code § 16-18-2-1.5
Sec. 1.5. (a) “Abortion clinic”, for purposes of IC 16-212, IC 16-34-2-4.7, IC 16-34-3, and IC 16-41-16, means
a health care provider (as defined in section 163(d)(1)
of this chapter) that:
(1) performs surgical abortion procedures; or
(2) beginning January 1, 2014, provides an
abortion inducing drug for the purpose of inducing an
abortion.
(b) The term does not include the following:
(1) A hospital that is licensed as a hospital under IC 16-21-2.
(2) An ambulatory outpatient surgical center
that is licensed as an ambulatory outpatient surgical
center under IC 16-21-2.
(3) A health care provider that provides, prescribes, administers, or dispenses an abortion inducing drug to fewer than five (5) patients per year for
the purposes of inducing an abortion.

120a
Indiana Code § 16-21-1-9
Sec. 9. (a) The state health commissioner may,
for good cause shown, waive a rule:
(1) adopted under this chapter; or
(2) that may be waived under IC 16-28 for a
specified time for a hospital based health facility or a
hospital licensed under this article.
(b) A waiver may not be granted unless the requesting party affirmatively demonstrates that the
waiver will not adversely affect or increase any risk to
the health, safety, or welfare of existing or potential
residents or patients.

121a
Indiana Code § 16-21-2-2.5
Sec. 2.5. (a) The state department shall adopt rules
under IC 4-22-2 to do the following concerning birthing centers and abortion clinics:
(1) Establish minimum license qualifications.
(2) Establish the following requirements:
(A) Sanitation standards.
(B) Staff qualifications.
(C) Necessary emergency equipment.
(D) Procedures to provide emergency care.
(E) Procedures to monitor patients after the administration of anesthesia.
(F) Procedures to provide follow-up care for patient complications.
(G) Quality assurance standards.
(H) Infection control.
(I) Provision of informed consent brochures, as
described in IC 16-34-2-1.5, in English, Spanish,
and a third language determined by the state department, inside abortion clinics.
(J) Provision of a hotline telephone number that
provides assistance for patients who are:
(i) coerced into an abortion; or
(ii) victims of sex trafficking.

122a
(K) Annual training by law enforcement officers
on identifying and assisting women who are:
(i) coerced into an abortion; or
(ii) victims of sex trafficking.
(3) Prescribe the operating policies, supervision, and
maintenance of medical records, including the requirement that all forms that require a patient signature be stored in the patient's medical record.
(4) Establish procedures for the issuance, renewal,
denial, and revocation of licenses under this chapter.
The rules adopted under this subsection must address the following:
(A) The form and content of the license.
(B) The collection of an annual license fee.
(5) Prescribe the procedures and standards for inspections.
(6) Prescribe procedures for:
(A) implementing a plan of correction to address
any violations of any provision of this chapter or
any rules adopted under this chapter; and
(B) implementing a system for the state department to follow if the abortion clinic or birthing
center fails to comply with the plan of correction
described in clause
(A) and disciplinary action is needed.
(b) A person who knowingly or intentionally:

123a
(1) operates a birthing center or an abortion clinic
that is not licensed under this chapter; or
(2) advertises the operation of a birthing center or
an abortion clinic that is not licensed under this
chapter;
commits a Class A misdemeanor.
(c) Not later than January 1, 2019, the state department shall:
(1) adopt separate rules under IC 4-22-2, including those required under subsection (a), for existing and future abortion clinics that perform only
surgical abortions;
(2) adopt separate rules under IC 4-22-2, including those required under subsection (a), for existing and future abortion clinics that perform abortions only through the provision of an abortion inducing drug; and
(3) establish procedures regarding the issuance of
licenses to existing and future abortion clinics
that:
(A) perform only surgical abortions;
(B) perform abortions only through the provision of an abortion inducing drug; or
(C) perform both surgical abortions and abortions through the provision of abortion inducing
drugs.

124a
(d) A rule or emergency rule adopted under subsection (c)(1), (c)(2), or (c)(3) applies, respectively, to
every abortion clinic of the type described in subsection (c)(1), (c)(2), or (c)(3), regardless of the date of
adoption of the rule or emergency rule.
(e) Before January 1, 2019, the state department
shall adopt emergency rules in the manner provided
under IC 4-22-2-37.1 to carry out the duties established in this section under the following:
(1) Subsection (a)(2)(E).
(2) Subsection (a)(2)(F).
(3) Subsection (a)(2)(I).
(4) Subsection (a)(2)(J).
(5) Subsection (a)(2)(K).
(6) Subsection (a)(3).
(7) Subsection (a)(5).
(8) Subsection (a)(6).
This subsection expires July 1, 2019.

125a
Indiana Code § 16-21-2-10
Sec. 10. A:
(1) person;
(2) state, county, or local governmental unit; or
(3) division, a department, a board, or an agency of
a state, county, or local governmental unit;
must obtain a license from the state health commissioner under IC 4-21.5-3-5 before establishing, conducting, operating, or maintaining a hospital, an ambulatory outpatient surgical center, an abortion
clinic, or a birthing center.

126a
Indiana Code § 16-21-2-11
Sec. 11. (a) An applicant must submit an application
for a license on a form prepared by the state department showing that:
(1) the applicant is of reputable and responsible
character;
(2) the applicant is able to comply with the minimum standards for a hospital, an ambulatory outpatient surgical center, an abortion clinic, or a birthing
center, and with rules adopted under this chapter;
and
(3) the applicant has complied with section 15.4 of
this chapter.
(b) The application must contain the following additional information:
(1) The name of the applicant.
(2) The type of institution to be operated.
(3) The location of the institution.
(4) The name of the person to be in charge of the
institution.
(5) If the applicant is a hospital, the range and
types of services to be provided under the general hospital license, including any service that would otherwise require licensure by the state department under
the authority of IC 16-19.

127a
(6) Other information the state department requires.
(c) If the department of state revenue notifies the department that a person is on the most recent tax warrant list, the department shall not issue or renew the
person's license until:
(1) the person provides to the department a statement from the department of state revenue that the
person's tax warrant has been satisfied; or
(2) the department receives a notice from the commissioner of the department of state revenue under IC 6-8.1-8-2(k).
(d) An application for an abortion clinic license must
require the applicant to do the following:
(1) Disclose whether the applicant, or an owner or
affiliate of the applicant, operated an abortion clinic
that was closed as a direct result of patient health and
safety concerns.
(2) Disclose whether a principal or clinic staff
member was convicted of a felony.
(3) Disclose whether a principal or clinic staff
member was ever employed by a facility owned or operated by the applicant that closed as a result of administrative or legal action.
(4) Provide copies of:

128a
(A) administrative and legal documentation relating to the information required under subdivisions (1) and (2);
(B) inspection reports; and
(C) violation remediation contracts;
if any.

